App. 1
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-1746
DAVID CARSON, as parent and next friend of O.C.;
AMY CARSON, as parent and next friend of O.C.;
ALAN GILLIS, as parent and next friend of I.G.;
JUDITH GILLIS, as parent and next friend of I.G.;
TROY NELSON, as parent and next friend of
A.N. and R.N.; ANGELA NELSON, as parent
and next friend of A.N. and R.N.,
Plaintiffs, Appellants,
v.
A. PENDER MAKIN, in her ofﬁcial capacity as Commissioner of the Maine Department of Education,
Defendant, Appellee.
-----------------------------------------------------------------------

APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MAINE
[Hon. D. Brock Hornby, U.S. District Judge]
-----------------------------------------------------------------------

Before
Barron, Circuit Judge,
Souter,* Associate Justice,
and Selya, Circuit Judge.

* Hon. David H. Souter, Associate Justice (Ret.) of the Supreme Court of the United States, sitting by designation.

App. 2
Timothy D. Keller, with whom Arif Panju, Institute for Justice, Lea Patterson, First Liberty Institute,
Jeffrey T. Edwards, PretiFlaherty, Michael K. Whitehead, Jonathan R. Whitehead, and Whitehead Law
Firm, LLC, were on brief, for appellants.
Vivek Suri, Assistant to the Solicitor General, with
whom Eric S. Dreiband, Assistant Attorney General,
Halsey B. Frank, United States Attorney, Elliott M.
Davis, Acting Principal Deputy Assistant Attorney
General, Thomas E. Chandler, Attorney, Civil Rights
Division, U.S. Department of Justice, and Eric W.
Treene, Attorney, Civil Rights Division, U.S. Department of Justice, were on brief, for United States, amicus curiae.
Jay Alan Sekulow on brief for the American Center for Law and Justice, amicus curiae.
Russell Menyhart, Taft Stettinius & Hollister LLP,
Leslie Hiner, EdChoice, Joshua D. Dunlap, and Pierce
Atwood LLP on brief for EdChoice and Maine Heritage
Policy Center, amici curiae.
Stephen C. Whiting, The Whiting Law Firm, and
Mordechai Biser on brief for Agudath Israel of America, amicus curiae.
Sarah A. Forster, Assistant Attorney General, with
whom Aaron M. Frey, Attorney General, Susan P. Herman, Deputy Attorney General, and Christopher C.
Taub, Assistant Attorney General, were on brief, for
appellee.

App. 3
Zachary L. Heiden, Emma E. Bond, Daniel Mach,
Heather L. Weaver, Richard B. Katskee, Alex J. Luchenitser, Sarah R. Goetz, M. Freeman, and David L.
Barkey on brief for American Civil Liberties Union,
American Civil Liberties Union of Maine Foundation,
Americans United for Separation of Church and State,
ADL (Anti-Defamation League), Central Conference of
American Rabbis, Hindu American Foundation, Interfaith Alliance Foundation, Men of Reform Judaism,
National Council of Jewish Women, People for the
American Way Foundation, the Reconstructionist Rabbinical Association, Union for Reform Judaism, Women
of Reform Judaism, American Atheists, Inc., Susan
Marcus, James Torbert, and Theta Torbert, amici curiae.
Bruce W. Smith, Malina E. Dumas, and Drummond Woodsum on brief for Maine School Boards Association and Maine School Superintendents
Association, amici curiae.
Francisco M. Negrón, Jr., John Foskett, and Valerio, Dominello & Hillman LLC on brief for National
School Boards Association, Maine School Boards Association, Massachusetts Association of School Committees, New Hampshire School Boards Association, and
Rhode Island Association of School Committees, amici
curiae.
Samuel Boyd, Christine Bischoff, Lindsey Rubinstein, Southern Poverty Law Center, David G. Sciarra,
Jessica Levin, Wendy Lecker, and Education Law

App. 4
Center on brief for Public Funds Public Schools, amicus curiae.
Alice O’Brien, Eric Harrington, Kristen Hollar, Judith Rivlin, Jennifer Mathis, Jennifer Reisch, Paul D.
Castillo, Andrew T. Mason, and Sunu Chandy on brief
for National Education Association; American Federation of State, County and Municipal Employees, AFLCIO; Bazelon Center for Mental Health Law; Center
for Law and Education; Council of Administrators of
Special Education; Equal Rights Advocates; GLSEN;
Lambda Legal Defense and Education Fund, Inc.;
Maine Education Association; National Women’s Law
Center; and Southern Education Foundation, amici curiae.
Samuel T. Grover, Patrick Elliott, Andrew Seidel,
and Brendan Johnson on brief for Freedom from Religion Foundation, Inc., amicus curiae.
-----------------------------------------------------------------------

October 29, 2020
-----------------------------------------------------------------------

BARRON, Circuit Judge. The Maine Constitution instructs the state legislature “to require[ ] the
several towns to make suitable provision, at their own
expense, for the support and maintenance of public
schools.” Me. Const. art. VIII, pt. 1, § 1. In response, the
legislature passed a statute that obliges it to “enact the
laws that are necessary to assure that all school administrative units make suitable provisions for the
support and maintenance of the public schools” so that

App. 5
every school-age child in the state has “an opportunity
to receive the beneﬁts of a free public education.” Me.
Stat. tit. 20-A, § 2(1).
Maine faces a practical problem, however, in making good on this commitment: more than half of its 260
school administrative units (“SAUs”) do not operate a
public secondary school of their own. So, to ensure that
those SAUs make the beneﬁts of a free public education available no less than others do, Maine provides
by statute that they may either (1) contract with a secondary school – whether a public school in a nearby
SAU or an “approved” private school – for school privileges, id. §§ 2701-2702, 5204(3), or (2) “pay the tuition
. . . at the public school or the approved private school
of the parent’s choice at which the student [from their
SAU] is accepted,” id. § 5204(4).
In this appeal, we consider a suit concerning this
tuition assistance program that three sets of parents
(and their children, for whom they sue as next friends)
brought in 2018 against the Commissioner (“Commissioner”) of the Maine Department of Education (“Department”). The suit, which the plaintiffs ﬁled in the
District of Maine, takes aim at the program’s requirement that a private school must be “a nonsectarian
school in accordance with the First Amendment of the
United States Constitution” to qualify as “approved” to
receive tuition assistance payments, see Me. Stat. tit.
20-A, § 2951(2). The plaintiffs claim that this “nonsectarian” requirement infringes various of their federal
constitutional rights, including their First Amendment
right to the free exercise of religion, by barring them

App. 6
from using their SAUs’ tuition assistance to send their
children to religious schools.
We have twice before rejected similar federal constitutional challenges to the “nonsectarian” requirement, see Eulitt ex rel. Eulitt v. Me. Dep’t of Educ., 386
F.3d 344 (1st Cir. 2004); Strout v. Albanese, 178 F.3d 57
(1st Cir. 1999), but, in the interim, the Supreme Court
of the United States has decided two cases that the
plaintiffs contend require us now to reverse course.
Even accounting for that fresh precedent, however, we
see no reason to do so. We thus afﬁrm the District
Court’s grant of judgment to the Commissioner.
I.
A.
The plaintiffs are David and Amy Carson and
their daughter O.C., for whom they sue as next friends;
Alan and Judith Gillis and their daughter I.G., for
whom they sue as next friends; and Troy and Angela
Nelson and their children A.N. and R.N., for whom they
sue as next friends. The plaintiffs live in SAUs that operate no public secondary school of their own and that
have opted to provide tuition assistance to parents who
wish to send their children to an “approved” private
school.
On August 21, 2018, the plaintiffs ﬁled a complaint in the District of Maine, alleging that § 2951(2)’s
“nonsectarian” requirement – which the complaint refers to as the “sectarian exclusion” – violates the

App. 7
federal Constitution both on its face and as applied because it “denies sectarian options to tuition-eligible
students and their parents.” The complaint asserts
claims pursuant to 42 U.S.C. § 1983 based on alleged
violations of the United States Constitution under the
Free Exercise, Establishment, and Freedom of Speech
Clauses of the First Amendment, as they have been incorporated by the Fourteenth Amendment’s Due Process Clause, and under that Amendment’s Equal
Protection Clause. The complaint requests declaratory
and injunctive relief. When ﬁled, it named as the defendant Robert G. Hasson, Jr., in his ofﬁcial capacity
as Commissioner.
B.
The tuition assistance program works as follows.
Parents ﬁrst select the school they wish their child to
attend. See Me. Stat. tit. 20-A, § 5204(4). If they select
a private school, and it has been “approved” by the Department under § 5204, the parents’ SAU must pay the
child’s tuition costs up to the legal tuition rate established in § 5806 by making the tuition payments directly to the school, see id. §§ 2951, 5204(4), 5806(2).
To be “approved” to receive such payments, a private school must meet the requirements for basic
school approval – and thus the state’s compulsory
school attendance requirements. Id. §§ 2901, 2951,
5001-A. To meet those requirements, the school must
be either “accredited by a New England association of
schools and colleges” or “approv[ed] for attendance

App. 8
purposes” by the Department, which depends in part
on whether the school can show that it meets basic curricular requirements. Id. §§ 2901-2902. In addition, a
private school must be “nonsectarian in accordance
with the First Amendment” and comply with certain
separate reporting and auditing requirements. Id.
§ 2951(2), (5).
C.
The complaint sets forth detailed allegations
about the “nonsectarian” requirement’s impact on the
plaintiffs. Those allegations, which we summarize
here, pertain to both the identity of the sectarian
schools that the parents want to send their children to
and the way the “nonsectarian” requirement prevents
them from receiving tuition assistance to do so.
The Carsons and the Gillises send their respective
children to Bangor Christian School (“BCS”), which is
a private, nonproﬁt school in Maine. They selected BCS
“because the school’s worldview aligns with their sincerely held religious beliefs and because of the school’s
high academic standards.” The Department classiﬁes
BCS, which is fully accredited by the New England Association of Schools and Colleges, as a “private school
approved for attendance purposes.”
The Nelsons send their daughter to Erskine Academy, which is a private academy that is “approved” to
receive tuition payments from SAUs. They would prefer, however, to send her to Temple Academy (“TA”),
which is a private school that their son attends and

App. 9
that “offers a high-quality educational program that
aligns with their sincerely held religious beliefs.” Because the Nelsons “cannot afford to send more than one
child to private school at their own expense,” they
would need the tuition assistance to send their daughter, like their son, to TA. Although TA is not currently
“approved” for attendance purposes, it is fully accredited by the New England Association of Schools and
Colleges and could otherwise satisfy the requirements
for “basic school approval.” Id. § 2901(1), (2)(a).
The plaintiffs have not requested that their respective SAUs pay tuition to their respective sectarian
schools. But, that is so, they allege, only because, given
the “nonsectarian” requirement, “such a request would
be futile.”
D.
The Commissioner answered the complaint by asserting that the plaintiffs lacked standing under Article III of the United States Constitution to bring their
claims and that, in any event, they failed to state a
claim upon which relief may be granted. See Fed. R.
Civ. P. 12(b)(1); Fed. R. Civ. P. 12(b)(6). For these reasons, the answer contended that the complaint had to
be dismissed.
Discovery was completed in early 2019. On February 7, 2019, the parties substituted A. Pender Makin
for Hasson, as by that time she had replaced Hasson
as the Commissioner. Soon thereafter, the parties
agreed to a stipulated record and joint stipulated facts.

App. 10
Among other things, that stipulated record detailed
the mission and educational philosophy at BCS and
TA.
The stipulated record established that BCS has a
mission of “instilling a Biblical worldview” in its students, with religious instruction “completely intertwined” in its curriculum and the Bible as its “ﬁnal
authority in all matters.” Due to BCS’s “high Biblical
standards,” moreover, it will not hire teachers who are
homosexual or who “identify as a gender other than on
their original birth certiﬁcate.” TA similarly provides a
“biblically-integrated education” and has an educational philosophy “based on a thoroughly Christian
and Biblical world view.” In addition, its religious commitments are such that it will not hire teachers who
are homosexual.
Also of relevance here, the stipulated record established that BCS and TA will not accept tuition assistance payments from an SAU if doing so would subject
them to the provisions of the Maine Human Rights Act
(“MHRA”) that bar discrimination in employment
based on sexual orientation and gender identity, Me.
Stat. tit. 5, §§ 4553(4), 4553(10)(G), 4573-A(2), and
thereby require them to change their hiring policies. At
the same time, the record makes clear that, but for the
“nonsectarian” requirement, they would “consider” accepting tuition payments from an SAU if doing so
would not force them to make such a change.

App. 11
E.
On April 5, 2019, the parties ﬁled cross-motions for
summary judgment, and soon thereafter amici curiae
ﬁled supporting legal memoranda in the District
Court. In addition, the United States ﬁled a statement
of interest in support of the plaintiffs’ motion for summary judgment.
The parties eventually agreed, however, to submit
the case to the District Court as cross-motions for judgment on the stipulated record. 401 F. Supp. 3d 207, 208
(D. Me. 2019). The District Court granted judgment to
the Commissioner while denying judgment to the
plaintiffs. Id. at 212.
The District Court noted that our Circuit and the
Maine Law Court “have upheld the Maine approach to
school choice when the [SAU] does not provide public
secondary education” against similar federal constitutional challenges. Id. at 209 (citing Eulitt, 386 F.3d 344;
Strout, 178 F.3d 57; Bagley v. Raymond Sch. Dep’t, 728
A.2d 127 (Me. 1999); and Anderson v. Town of Durham,
895 A.2d 944 (Me. 2006)). The District Court explained
that “[w]hat provoke[d] renewal of the dispute now, in
the face of those many past decisions, is a 2017 United
States Supreme Court decision, Trinity Lutheran
Church of Columbia, Inc. v. Comer,” which the plaintiffs
argued “radically changed the constitutional landscape of First Amendment free exercise challenges.” Id.
In Trinity Lutheran, the Court considered a federal constitutional challenge to a state restriction on a
state-provided subsidy for resurfacing playgrounds at

App. 12
preschool and daycare facilities. 137 S. Ct. 2012, 2017
(2017). The Court determined that, under the Free Exercise Clause, the application of that restriction to
deny the subsidy to a church-owned preschool was subject to the strictest scrutiny, because it was based
“solely” on the putative recipient’s religious “character.” Id. at 2021. The Court then concluded that the application of the restriction in that manner could not
survive such exacting review. Id. at 2024.
Before addressing the import of Trinity Lutheran
to the case at hand, though, the District Court ﬁrst addressed the Commissioner’s contention that the plaintiffs lacked Article III standing. The District Court
explained that it was “arguable” that BCS and TA, by
accepting tuition assistance payments from an SAU,
would be subject to the MHRA’s prohibition against
discrimination in employment based on sexual orientation when they otherwise would not be and that, in
consequence, BCS’s and TA’s “willingness to ‘consider’
applying for approval for public funding may not go
far.” 401 F. Supp. 3d at 210. But, despite this uncertainty, the District Court held that the plaintiffs had
Article III standing under our prior decision in Eulitt,
which held that the plaintiffs there had standing to
bring similar challenges to the “nonsectarian” requirement even though “there was no guarantee” that the
sectarian private school that they had selected for
their children to attend would agree to participate in
the tuition assistance program if the “nonsectarian” requirement were invalidated. Id.

App. 13
The District Court then turned to the question
whether Trinity Lutheran controlled and noted that
“[u]ntil a court of appeals revokes a binding precedent,
a district court within the circuit is hard put to ignore
that precedent unless it has unmistakably been cast
into disrepute by supervening authority.” Id. at 211
(quoting Eulitt, 386 F.3d at 349). But, while the plaintiffs contended that Trinity Lutheran abrogated our
prior decision in Eulitt, id. at 209, which upheld this
“nonsectarian” requirement against similar federal
constitutional challenges, the District Court disagreed,
id. at 211-12.
The District Court pointed out that four of the six
Justices who joined the majority opinion in Trinity Lutheran stated in a footnote that “[t]his case involves
express discrimination based on religious identity with
respect to playground resurfacing. We do not address
religious uses of funding or other forms of discrimination.” 401 F. Supp. 3d at 211 (quoting Trinity Lutheran,
137 S. Ct. at 2024 n.3). It also observed that a seventh
Justice, who concurred in the judgment, explicitly left
“the application of the Free Exercise Clause to other
kinds of public beneﬁts for another day.” Id. (quoting
Trinity Lutheran, 137 S. Ct. at 2027 (Breyer, J., concurring in the judgment)).
Thus, the District Court concluded that Eulitt “has
certainly not been revoked” and that, because “Maine’s
educational approach has not changed materially
since” Eulitt, that precedent controlled and required
that the plaintiffs’ challenges be rejected. Id. at 208
n.8, 211-12. The District Court added, however, that

App. 14
even though it could not, “as a trial [court], say that
Eulitt . . . has unmistakably been cast into disrepute[,]
[i]t is certainly open to the First Circuit to conclude
that, after Trinity Lutheran, it should alter its Eulitt
holding that sustained Maine’s educational funding
law.” Id. at 211.
F.
The plaintiffs timely appealed on July 23, 2019.
We heard arguments on January 8, 2020. Two further
developments of note followed.
Two weeks after oral argument in our Circuit, the
Supreme Court of the United States heard arguments
in Espinoza v. Montana Department of Revenue, 140
S. Ct. 2246 (2020). There, the Court considered a free
exercise challenge to a Montana Supreme Court decision that struck down a state program giving tax credits to those who donated to organizations providing
scholarships to private schools. Id. at 2251-53. The
Montana Supreme Court explained that it was invalidating the program because it conﬂicted with a provision of that state’s constitution that, among other
things, prohibited state aid to private schools controlled by a “church, sect, or denomination.” See id. at
2251.
Then, on June 30, 2020, the United States Supreme Court ruled that, under the Free Exercise
Clause of the United States Constitution, the Montana
Supreme Court’s decision applying the state constitution’s no-aid provision in that manner was both subject

App. 15
to strict scrutiny and could not survive such review. Id.
at 2260-64. Both parties to this appeal soon thereafter
ﬁled Rule 28(j) letters that set forth their view of how
Espinoza affected our decision here. Fed. R. App. P.
28(j). The plaintiffs contend that Espinoza accords
with their contention that the “nonsectarian” requirement violates the Free Exercise Clause. The Commissioner contends that, even accounting for Espinoza, the
District Court’s ruling rejecting the plaintiffs’ challenge to that requirement must be afﬁrmed.
II.
We start with the Commissioner’s challenge to the
plaintiffs’ standing under Article III of the Constitution. See Allen v. Wright, 468 U.S. 737, 750 (1984). To
establish Article III standing, “a plaintiff must show
(1) it has suffered an ‘injury in fact’ that is (a) concrete
and particularized and (b) actual or imminent, not conjectural or hypothetical; (2) the injury is fairly traceable to the challenged action of the defendant; and (3) it
is likely, as opposed to merely speculative, that the injury will be redressed by a favorable decision.” Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc.,
528 U.S. 167, 180-81 (2000). Our review is de novo.
Katz v. Pershing, LLC, 672 F.3d 64, 70 (1st Cir. 2012).
The Commissioner accepts that, in principle, parents can establish standing to challenge the “nonsectarian” requirement, even though SAUs make the
tuition assistance payments directly to the schools that
the parents choose for their children to attend. Nor,

App. 16
given Eulitt, do we see how she could contend otherwise.
We explained in Eulitt that the parent-plaintiffs
in that case satisﬁed the injury-in-fact component of
Article III standing because they plausibly alleged
that the “nonsectarian” requirement denied them the
“opportunity” to ﬁnd religious secondary education for
their children that would qualify for public funding.
386 F.3d at 353. According to Eulitt, the loss of that
“opportunity” in and of itself constituted an injury in
fact personal to the parents, as “[e]ven though it is the
educational institution, not the parent, that would receive the tuition payments for a student . . . it is the
parent who must submit such an application and who
ultimately will beneﬁt from the approval.” Id.
With respect to the fairly-traceable component of
Article III standing, moreover, we explained in Eulitt
that because § 2951(2) “imposes restrictions on that
approval, the parents’ allegations of injury in fact to
their interest in securing tuition funding provides a
satisfactory predicate for standing.” Id. And, in doing
so, we relied on Bennett v. Spear, 520 U.S. 154 (1997),
which we read to establish that the “harm ‘produced by
determinative or coercive effect’ upon a third party satisﬁes the injury in fact requirement when the harm is
‘fairly traceable’ to that effect.” Eulitt, 386 F.3d at 353
(quoting Bennett, 520 U.S. at 168-69).
The Commissioner nevertheless contends that the
parents here cannot meet the redressability component of standing and that Eulitt is not to the contrary

App. 17
because it did not address redressability at all. The
Commissioner points chieﬂy to the fact that BCS and
TA represent that they will not apply to be “approved”
to receive tuition assistance payments if, by receiving
such public funding, they would subject themselves to
the MHRA’s prohibition against discrimination in employment based on sexual orientation and thereby be
forced to change their hiring policies. The Commissioner argues that, in consequence of this uncertainty
about BCS’s and TA’s willingness to participate in the
tuition assistance program, the plaintiffs cannot show
that it is “likely” that their requested relief – the invalidation of the “nonsectarian” requirement – would redress their injury. See Lujan v. Defs. of Wildlife, 504
U.S. 555, 561 (1992) (“[I]t must be ‘likely,’ as opposed to
merely ‘speculative,’ that the injury will be ‘redressed
by a favorable decision.’ ” (quoting Simon v. E. Ky. Welfare Rts. Org., 426 U.S. 26, 38, 43 (1976))).
In determining redressability, we must pay careful
attention to both the nature of the plaintiffs’ injury in
fact and the role that the challenged governmental action plays in causing it. When we do so here, it is evident that there is no redressability problem.
As Eulitt makes clear, the plaintiffs’ injury in fact
inheres in their having lost the “opportunity” to ﬁnd
religious secondary education for their children that
would qualify for public funding, 386 F.3d at 353, even
though, if the “nonsectarian” requirement were struck
down, BCS and TA might not participate in the tuition
assistance program. After all, Eulitt held that the
plaintiffs there had suffered an injury in fact based on

App. 18
a similar lost opportunity, even though “it [was] entirely possible that the school [that they wished to send
their children to] . . . is not interested in participating
in Maine’s tuition program and thereby subjecting itself to any number of concomitant state regulations.”
Id. at 352. Moreover, Eulitt makes clear that this lost
opportunity – and thus, this injury in fact – is fairly
traceable to the “nonsectarian” requirement, even if it
is not likely that either school will participate in the
tuition assistance program. See id. at 352-53.
True, BCS’s and TA’s concern about participating
in the tuition assistance program centers on an expressly identiﬁed regulatory requirement – namely,
the one set forth in the MHRA – rather than (as in Eulitt) unidentiﬁed ones. But, we do not see why that
matters, given that it is not certain that the MHRA ultimately would lead either BCS or TA to decline tuition
assistance payments if they were eligible to receive
them, not the least because of potentially fact-dependent free exercise concerns that might then arise, cf.
Bostock v. Clayton County, 140 S. Ct. 1731, 1754 (2020)
(noting that although “none of the employers before us
today represent in this Court that compliance with Title VII will infringe their own religious liberties in any
way,” “other employers in other cases may raise free
exercise arguments that merit careful consideration”).
Thus, the invalidation of § 2951(2)’s “nonsectarian” requirement would restore the plaintiffs’ now
non-existent opportunity to ﬁnd religious education for
their children that qualiﬁes for public funding. And
that is so even though the continued existence of that

App. 19
opportunity would depend on choices that BCS and TA
might make in the future about whether to participate
in the tuition assistance program. For, as the case
comes to us, neither school has yet extinguished that
opportunity by choosing to disclaim a willingness to
consider participating. Thus, it is not merely likely that
the relief that the plaintiffs seek would redress their
injury, it is certain that it would.
In arguing otherwise, the Commissioner points to
cases that she contends have rejected plaintiffs’ attempts to satisfy the redressability component of Article III standing on the ground that the effectiveness of
their requested relief depended on the discretionary
actions of third parties. See, e.g., Simon, 426 U.S. at 4243; Allen, 468 U.S. at 757-59; Warth v. Seldin, 422 U.S.
490, 505-07 (1975); Linda R.S. v. Richard D., 410 U.S.
614, 618-19 (1973). But, those cases did not involve –
as this one does – an injury in fact that inhered in a
lost opportunity to seek a government beneﬁt. See Simon, 426 U.S. at 42-43; Allen, 468 U.S. at 757; Warth,
422 U.S. at 495-96; Linda R.S., 410 U.S. at 617-18. Nor
did they involve – as this one does – an injury in fact
traceable to the challenged governmental action. See
Simon, 426 U.S. at 42-43; Allen, 468 U.S. at 757-59;
Warth, 422 U.S. at 506; Linda R.S., 410 U.S. at 617-18.
By contrast, Northeastern Florida Chapter of the
Associated General Contractors of America v. City of
Jacksonville (Northeastern Contractor), 508 U.S. 656
(1993), shares those twin features of this case and
points against the Commissioner’s position as to redressability. There, the Supreme Court held that the

App. 20
plaintiff, an organization that represented private contractors, had standing to challenge a city ordinance’s
minority set-aside provision on federal equal protection grounds. Id. at 658-59, 669. In doing so, the Court
did not require that organization to show that the city’s
contracting ofﬁcers were likely to exercise their discretion to contract with any of those private contractors if
the challenged provision were struck down. Rather, it
held that it was enough that the organization had alleged that the set-aside provision denied the contractors the opportunity to apply for the contracts on an
equal footing with others. Id. at 666 & n.5; see also id.
at 665-66 (detailing a number of “cases [that] stand for
the following proposition: When the government erects
a barrier that makes it more difﬁcult for members of
one group to obtain a beneﬁt than it is for members of
another group, a member of the former group seeking
to challenge the barrier need not allege that he would
have obtained the beneﬁt but for the barrier in order
to establish standing”).
The Commissioner contends that Northeastern
Contractor is distinguishable because it involved a
challenge to a restriction that operated directly on the
plaintiff (as the representative of private contractors).
But, the injury in fact suffered by the plaintiffs here is,
per Eulitt, no less fairly traceable to the restriction
that they challenge, see 386 F.3d at 353, than the injury in fact in Northeastern Contractor was found to
be to the restriction at issue there. Accordingly, we do
not see why these plaintiffs are any less able to satisfy
the redressability component of standing than the

App. 21
private-contractor organization in that case. For, while
future developments might moot the plaintiffs’ claims
by making clear that neither BCS nor TA will participate in the tuition assistance program, the opportunity
that underlies the plaintiffs’ bid for standing – as the
loss of it constitutes the injury in fact – exists at present but for the “nonsectarian” requirement. We therefore proceed to the merits, starting with the plaintiffs’
challenge under the Free Exercise Clause.
III.
The plaintiffs contend that the “nonsectarian” requirement discriminates against them based on their
religion and thereby violates the Free Exercise Clause.
We ﬁrst explain why, given Trinity Lutheran and Espinoza, Eulitt does not dictate our resolution of this challenge. We then explain why, even considering that
challenge afresh in the light of those two new precedents, the plaintiffs’ free exercise challenge lacks
merit. Our review is de novo. See Auburn Police Union
v. Carpenter, 8 F.3d 886, 892 (1st Cir. 1993).
A.
The plaintiffs accept the District Court’s conclusion that Maine’s tuition assistance program is “materially” the same as it was at the time of Eulitt. See 401
F. Supp. 3d at 208 n.8. They also accept that their free
exercise challenge mirrors the one rejected there. The
plaintiffs nonetheless contend that Eulitt does not control the outcome here under the law-of-the-circuit

App. 22
doctrine, see United States v. Wogan, 938 F.2d 1446,
1449 (1st Cir. 1991), because of Trinity Lutheran and
Espinoza. We agree.
1.
One exception to the law-of-the-circuit doctrine
“comes into play when a preexisting panel opinion is
undermined by subsequently announced controlling
authority, such as a decision of the Supreme Court, a
decision of the en banc court, or a statutory overruling.”
Eulitt, 386 F.3d at 349. The other exists “when recent
Supreme Court precedent calls into legitimate question a prior opinion of an inferior court.” Id. at 350. “In
that context,” we have explained, “a reviewing court
must pause to consider the likely signiﬁcance of the
neoteric Supreme Court case law before automatically
ceding the ﬁeld to an earlier decision.” Id. (“[Where]
signiﬁcant developments in the pertinent jurisprudence . . . shed new light on the case law . . . [it is] incumbent upon us to reject a rote application of stare
decisis . . . and to undertake a fresh analysis.”).
The plaintiffs address both exceptions but focus on
the second. Notably, Eulitt relied on that same exception in declining to reject the free exercise challenge
there based solely on our prior ruling in Strout, in
which we upheld the “nonsectarian” requirement
against similar federal constitutional challenges. Eulitt, 386 F.3d at 350; Strout, 178 F.3d at 64-65.
Eulitt observed that Strout held that the “nonsectarian” requirement comported with the Free Exercise

App. 23
Clause because it effected at most a minimal burden
on religious exercise (given that it merely restricted
the availability of a subsidy) and its enactment was not
motivated by animus against religion. Id. at 354-55
(citing Strout, 178 F.3d at 65). Eulitt also pointed out
that Strout emphasized Maine’s interest in avoiding a
violation of the Establishment Clause. Id. at 350 (citing
Strout, 178 F.3d at 64).
Eulitt explained, however, that Strout was no
longer controlling because of two subsequently decided
Supreme Court cases: Locke v. Davey, 540 U.S. 712
(2004), and Zelman v. Simmons-Harris, 536 U.S. 639
(2002). In Locke, the Supreme Court rejected a free exercise challenge to a law that barred state scholarship
aid from being used for a devotional theology degree.
540 U.S. at 718. Zelman, by contrast, rejected an Establishment Clause challenge to a state voucher program that made tuition assistance available to parents
to send their children to religious private schools. 536
U.S. at 643-44, 662-63.
Eulitt did not decide that either of these intervening Supreme Court cases overruled Strout. It held that
Locke supported Strout and that Zelman was distinguishable on the facts with respect to the Establishment Clause issue. 386 F.3d at 349 & n.1, 354. But,
Eulitt concluded that those two then-recent Supreme
Court precedents triggered the second exception to the
law-of-the-circuit doctrine, because they “provide[d] [a]
more focused direction than was available to the
Strout panel.” Id. at 350. For that reason, Eulitt held
that it was “incumbent upon us to reject a rote

App. 24
application of stare decisis here and to undertake a
fresh analysis.” Id.
Trinity Lutheran and Espinoza, especially when
considered together, similarly “provide [a] more focused direction than was available to the [Eulitt]
panel,” id. That is so, as we next explain, in two respects.
2.
In Eulitt, we did not focus on whether the determination that a school qualiﬁes as “nonsectarian” under § 2951(2) is based solely on its religious “status” or
instead on the religious use that it would make of the
tuition assistance payments. See id. at 354-56. In both
Trinity Lutheran and Espinoza, however, it was of central importance whether the restriction at issue was
based solely on the aid recipient’s religious status.
Trinity Lutheran explained that the playground
resurfacing program “expressly discriminate[d] against
otherwise eligible recipients by disqualifying them
from a public benefit solely because of their religious
character” and held that, in consequence, it was subject to “the most exacting scrutiny.” 137 S. Ct. at 2021.
Trinity Lutheran indicated, moreover, that discrimination based solely on “religious character” did not
depend on the religious “use” that the recipient would
make of the subsidy, and so left unaddressed the level
of scrutiny that would apply to a restriction of that
kind. Id. at 2023 (explaining that the plaintiff in
Locke “was not denied a scholarship because of who he

App. 25
was; he was denied a scholarship because of what he
proposed to do – use the funds to prepare for the ministry,” while “[h]ere there is no question that Trinity
Lutheran was denied a grant simply because of what
it is – a church”).
To be sure, as the District Court noted, 401
F. Supp. 3d at 211, Trinity Lutheran contained potentially important caveats regarding its application beyond the idiosyncratic context there at issue. But,
Espinoza followed soon thereafter and explained that
Trinity Lutheran “distilled” the Court’s free exercise
precedent “into the ‘unremarkable’ conclusion that disqualifying otherwise eligible recipients from a public
beneﬁt ‘solely because of their religious character’ imposes ‘a penalty on the free exercise of religion that
triggers the most exacting scrutiny.’ ” Espinoza, 140
S. Ct. at 2255 (quoting Trinity Lutheran, 137 S. Ct. at
2021).
Moreover, Espinoza clariﬁed both that discrimination based solely on “religious character” is discrimination based solely on religious “status” and that such
discrimination is distinct from discrimination based on
religious “use.” Id. To that point, Espinoza expressly rejected the contention that the Montana Supreme Court
had held that the no-aid provision of the Montana Constitution excludes religious schools from receiving aid
“not because of the religious character of the recipients, but because of how the funds would be used – for
‘religious education.’ ” Id. at 2255. Rather, the Court explained that, as in Trinity Lutheran, the case before it

App. 26
“turn[ed] expressly on religious status and not religious use.” Id. at 2256.
In addition to clarifying that use-based religious
discrimination differs (even if not in a necessarily outcome-determinative way) from solely status-based religious discrimination, Espinoza also explained why
the latter type of discrimination triggered strict scrutiny. Id. at 2257. To deny aid to a religious school
“simply because of what it is,” the Court observed,
“put[s] the school to a choice between being religious
or receiving government beneﬁts.” Id. (quoting Trinity
Lutheran, 137 S. Ct. at 2023). Such a “choice between
being religious or receiving government beneﬁts” is not
free from coercion, because a requirement that a school
“divorce itself from any religious control or afﬁliation”
to receive aid for which it is otherwise eligible necessarily “punishe[s] the free exercise of religion.” Id. at
2256 (alteration in original) (emphasis added) (quoting
Trinity Lutheran, 137 S. Ct. at 2022).1
1

The Court’s analysis resonates with unconstitutional conditions doctrine in the First Amendment area more generally.
See, e.g., Rust v. Sullivan, 500 U.S. 173, 197-99 (1991) (“[O]ur ‘unconstitutional conditions’ cases involve situations in which the
Government has placed a condition on the recipient of the subsidy
rather than on a particular program or service, thus effectively
prohibiting the recipient from engaging in the protected conduct
outside the scope of the federally funded program.” (emphasis in
original)); Agency for Int’l Dev. v. All. for Open Soc’y Int’l, Inc.
(AOSI I), 570 U.S. 205, 218 (2013) (ﬁnding the funding requirement at issue to violate the First Amendment because it “goes
beyond deﬁning the limits of the federally funded program to deﬁning the recipient”); FCC v. League of Women Voters, 468 U.S.
364, 399-400 (1984) (similar).

App. 27
Thus, Espinoza held that the solely status-based
religious discrimination involved there triggered strict
scrutiny, even as it expressly left unaddressed the level
of scrutiny applicable to a use-based restriction. Id. at
2257. For that reason, in the wake of Espinoza, the
use/status distinction is clearly potentially relevant to
the determination of the level of scrutiny that must be
applied here. Yet, Eulitt did not give that distinction
the “more focused” attention, 386 F.3d at 350, that we
now know that it warrants.
3.
The other respect in which Trinity Lutheran and
Espinoza require us to conclude that we may not
simply decide this case based on Eulitt has to do with
its reliance on Locke in declining to apply strict scrutiny to the “nonsectarian” requirement. The problem
here is that Trinity Lutheran and Espinoza each offer
signiﬁcant commentary on Locke and its scope that
Eulitt did not have the beneﬁt of considering. See Espinoza, 140 S. Ct. at 2257-59; Trinity Lutheran, 137
S. Ct. at 2023-24.
Eulitt read Locke to “conﬁrm[ ] that the Free Exercise Clause’s protection of religious beliefs and practices from direct government encroachment does not
translate into an afﬁrmative requirement that public
entities fund religious activity simply because they
choose to fund the secular equivalents of such activity.”
Eulitt, 386 F.3d at 354. This “room for play in the
joints,” Eulitt then held, extended beyond the clerical

App. 28
training considered in Locke, as it understood that
case to stand “more broadly” for the proposition that
“state entities, in choosing how to provide education,
may act upon their legitimate concerns about excessive
entanglement with religion, even though the Establishment Clause may not require them to do so.” Id. at
355 (quoting Locke, 540 U.S. at 718). Therefore, Eulitt
relied on Locke to conclude that even a restriction that
“lacks religious neutrality on its face” does not necessarily pose free exercise concerns unless the decision
not to fund constitutes impermissible animus. Id.
Espinoza, however, distinguished Locke based on
what it described as the narrow use-based nature of
the restriction there and the “ ‘historic and substantial’
state interest” underlying it. 140 S. Ct. at 2257-58
(quoting Locke, 540 U.S. at 725). Espinoza noted in this
regard that the restriction involved in Locke permitted
the scholarship aid to be used at “pervasively religious
schools” and that the restriction on that aid was in line
with a historic tradition against using public funds to
train clergy. Id. (quoting Locke, 540 U.S. at 724). Thus,
Espinoza provides, at the very least, a “more focused
direction than was available to the [Eulitt] panel,” Eulitt, 386 F.3d at 350, as to Locke’s bearing on our assessment of the level of scrutiny that applies to the
“nonsectarian” requirement that § 2951(2) sets forth.

App. 29
4.
The Commissioner makes one additional argument for why, despite Trinity Lutheran and Espinoza,
the second exception to the law-of-the-circuit doctrine
does not apply here. She argues that Maine’s school aid
program differs substantially from the ones at issue in
Espinoza and Trinity Lutheran. “Maine’s tuition program,” the Commissioner says, “is not: a ‘voucher’ or
‘school choice’ program where parents are given the opportunity to select a school other than the public school
that their student would otherwise attend.” Rather,
Maine uses the tuition beneﬁt to “ensur[e]” that the
state-paid-for education at private schools in those districts is “roughly equivalent to the education [students] would receive in public schools” but cannot
obtain because it is not otherwise offered.
But, the question under the second exception to
the law-of-the-circuit doctrine is whether intervening
precedent requires a fresh look at what we decided before, not whether it dictates a different result. Indeed,
even though the aid programs in Locke and Zelman
differed from Maine’s tuition assistance program, see
Eulitt, 386 F.3d at 349 & n.1, 355, Eulitt still held that
those then-recent Supreme Court precedents required
us to look at our earlier precedent in Strout anew, id.
at 350. Accordingly, whatever the bounds of this exception to the law-of-the-circuit doctrine may be as a general matter, we are conﬁdent that it applies here and
thus that Eulitt’s free exercise ruling is no longer controlling.

App. 30
B.
With Trinity Lutheran and Espinoza now on the
scene, we take up the plaintiffs’ free exercise challenge
afresh. In doing so, we may assume up front, as the
plaintiffs assert, that the Establishment Clause does
not require Maine to impose the “nonsectarian” requirement on its tuition assistance program.2 For, as
we will explain, the plaintiffs’ free exercise challenge
fails even if we make that assumption, Trinity Lutheran and Espinoza notwithstanding. To explain why,
we ﬁrst address the plaintiffs’ claim of religious discrimination based on Trinity Lutheran and Espinoza.
We then turn to the distinct variant of their free exercise challenge in which they point to speciﬁc statements in § 2951(2)’s legislative record that they contend reﬂect religious animus – a species of free exercise
challenge, we note, in which the Supreme Court’s most
recent precedents in this area are of less relevance.

2

As we noted in Eulitt, “[e]ven after Zelman and [Locke], it
is fairly debatable whether or not the Maine tuition program
could survive an Establishment Clause challenge if the state
eliminated section 2951(2) and allowed sectarian schools to receive tuition funds,” given that the Maine program is “substantially narrower” than the school-choice program under scrutiny in
Zelman because it serves as a backstop for children who have no
opportunity to attend a public school. 386 F.3d at 349 & n.1. So,
it is hardly clear that there is no legitimate Establishment Clause
concern supporting the state’s decision to impose the restriction.

App. 31
1.
In claiming religious discrimination based on
Trinity Lutheran and Espinoza, the plaintiffs do not
dispute that all Mainers who reside in SAUs with no
public secondary school of their own are equally free to
use the tuition assistance to obtain a secular education
at a private school. See Eulitt, 386 F.3d at 354 n.5. They
contend, however, that the “nonsectarian” requirement
impermissibly singles them out for unequal treatment
based on religion nonetheless, because it precludes
them from “either (1) . . . receiving the Tuition Beneﬁt
because they have exercised their freedom of religion
by enrolling their students in religious schools, or (2)
. . . exercising their freedom of religion to enroll their
student in a religious school because they cannot afford tuition without receiving the Tuition Beneﬁt.”
In ﬂeshing out this argument, the plaintiffs assert
that their “desire for religious educational options
ﬂows from, and is inextricably intertwined with, their
religious status.” They further contend that “[t]o deny
them an otherwise available beneﬁt because they desire a religious education for their children is to deny
them that beneﬁt based on their religious status.” Accordingly, they assert, the “nonsectarian” requirement
is like the restrictions on the subsidies at issue in Trinity Lutheran and Espinoza, because it, too, necessarily
penalizes their religious exercise.
We proceed ﬁrst by answering a pair of questions
that are embedded in this claim of religious discrimination: (a) What constitutes discrimination based

App. 32
“solely on religious status”?,3 and (b) Does the “nonsectarian” requirement discriminate in that way?4 As we
will explain, the “nonsectarian” requirement does not
discriminate based solely on religious status. But, having come that far, we still then must address one more
question: (c) Does the “nonsectarian” requirement punish the plaintiffs’ religious exercise nonetheless? For
the reasons set forth below, it does not.
a.
Espinoza offers the clearest guidance as to what
constitutes, with respect to doling out aid, solely
3

We recognize that, if the Commissioner were right that the
plaintiffs’ free exercise challenge would fail even if the determination of whether a school qualiﬁes as “nonsectarian” is based
solely on its religious status, we could simply assume as much in
deciding the merits of the challenge. But, it is not our practice to
resolve hypothetical federal constitutional questions, especially
when doing so would result in a broader constitutional ruling
than the facts at hand require. See Ala. State Fed’n of Lab. v.
McAdory, 325 U.S. 450, 461 (1945).
4
The District Court did not itself directly engage with the
status- versus use-based distinction, but the parties have, and it
is one of law. We thus see no reason to prolong the litigation by
vacating and remanding for the District Court to assess the import of the fact that the “nonsectarian” requirement is not based
solely on religious status. See Cutting v. City of Portland, 802
F.3d 79, 86 (1st Cir. 2015) (addressing a legal question in the ﬁrst
instance “despite the fact that the District Court ha[d] not passed
on it”). We note as well that none of the parties has asked us to
remand in light of Espinoza or argued that, insofar as the “nonsectarian” requirement is use based, it would not bar BCS or TA
from qualifying as “nonsectarian.” Indeed, the record makes clear
that they would not so qualify, given what the record shows about
the way each would use the funds.

App. 33
status-based religious discrimination as opposed to
discrimination based on religious use. Such statusbased discrimination is manifest, Espinoza instructs,
when a restriction is based solely on the aid recipient’s
afﬁliation with or control by a religious institution.
Espinoza explained that the Montana Constitution’s no-aid provision was based solely on religious
status – and thus not on religious use – because the
Montana Supreme Court “repeatedly explained that
the no-aid provision bars aid to ‘schools controlled in
whole or in part by churches,’ ‘sectarian schools,’ and
‘religiously-afﬁliated schools.’ ” Id. (quoting Espinoza v.
Mont. Dep’t of Revenue, 435 P.3d 603, 611-13 (Mont.
2018)). Espinoza emphasized, too, that the Montana
Supreme Court “noted that most of the private schools
that would beneﬁt from the program were ‘religiously
afﬁliated’ and ‘controlled by churches’ ” and that the
Montana Supreme Court “ultimately concluded that
the scholarship program ran afoul of the Montana Constitution by aiding ‘schools controlled by churches.’ ” Id.
(quoting Espinoza, 435 P.3d at 613-14). Finally, it was
on this basis that Espinoza held that “[t]he Montana
Constitution discriminates based on religious status
just like the Missouri policy in Trinity Lutheran,” as it
explained that the policy there “excluded organizations
‘owned or controlled by a church, sect, or other religious entity.’ ” Id. (quoting Trinity Lutheran, 137 S. Ct.
at 2017).
Espinoza made clear, moreover, that discrimination in handing out school aid based on the recipient’s
afﬁliation with or control by a religious institution

App. 34
differed from discrimination in handing out that aid
based on the religious use to which the recipient would
put it. Espinoza acknowledged that passages in the
Montana Supreme Court’s decision indicated that the
state constitution’s no-aid provision “has the goal or effect of ensuring that government aid does not end up
being used for ‘sectarian education’ or ‘religious education.’ ” Id. (emphasis added) (quoting Espinoza, 435
P.3d at 613-14). It also considered the contention that
the no-aid provision was being applied by the Montana
Supreme Court based on the religious use that those
schools would make of that aid – rather than solely
based on their religious status – because “[g]eneral
school aid . . . could be used for religious ends by some
recipients, particularly schools that believe faith
should ‘permeate’ everything they do.” Id. But, Espinoza held that those use-based “considerations were
not the Montana Supreme Court’s basis for applying
the no-aid provision to exclude religious schools; that
hinged solely on religious status.” Id. As the Court explained, “[s]tatus-based discrimination remains status
based even if one of its goals or effects is preventing
religious organizations from putting aid to religious
uses.” Id.
b.
Drawing on Espinoza’s analysis of the nature of
solely status-based discrimination and how it differs
from discrimination based on religious use, we come,
then, to the next question that we must confront:
Does the “nonsectarian” requirement in § 2951(2)

App. 35
discriminate in that manner? We conclude that it does
not, because, as we will explain, § 2951(2) imposes a
use-based restriction.
Notably, in response to the plaintiffs’ interrogatories, Commissioner Hasson stated that the Department determines if a school satisﬁes § 2951(2)’s
“nonsectarian” requirement in the following way:
In making its determination whether a particular school is in compliance with Section
2951, the Department considers a sectarian
school to be one that is associated with a particular faith or belief system and which, in
addition to teaching academic subjects, promotes the faith or belief system with which it
is associated and/or presents the material
taught through the lens of this faith. While afﬁliation or association with a church or religious institution is one potential indicator of
a sectarian school, it is not dispositive. The
Department’s focus is on what the school
teaches through its curriculum and related
activities, and how the material is presented.
(emphasis added). Notably, too, the current Commissioner and the Maine Attorney General represent to us
that they share the former Commissioner’s view that
the determination whether a school is “nonsectarian”
depends on the sectarian nature of the educational instruction that the school will use the tuition assistance
payments to provide. See Appellee’s Br. at 39 (“Nor are
the sectarian schools being denied participation in the
tuition program because they are operated by
churches. . . . Sectarian schools are denied funds not

App. 36
because of who they are but because of what they
would do with the money – use it to further the religious purposes of inculcation and proselytization.”).
The text of § 2951(2) contains nothing that expressly is to the contrary, as it does not, by its terms,
make control by or afﬁliation with a religious institution determinative of a school’s eligibility to receive tuition assistance payments from an SAU. Nor does the
inclusion of the word “nonsectarian” in § 2951(2) in
and of itself reveal that Maine must have intended to
impose a solely status- rather than use-based restriction in that provision. In fact, in Espinoza the
Court acknowledged that the Montana Supreme Court
understood the no-aid provision to “forbid[ ] aid to any
school that is ‘sectarian,’ ‘religiously afﬁliated,’ or ‘controlled in whole or in part by churches,’ ” but then focused, in deeming that provision to be solely status
based, on the bar that it imposed on “aiding ‘schools
controlled by churches.’ ” 140 S. Ct. at 2256 (emphases
added) (quoting Espinoza, 435 P.3d at 611-14); see also
id. (describing the no-aid provision as being similar to
Trinity Lutheran’s exclusion of “organizations ‘owned
by or controlled by a church, sect, or other religious entity.’ ” (quoting Trinity Lutheran, 137 S. Ct. at 2017)).
The inclusion of the trailing phrase “in accordance
with the First Amendment” in the text of § 2951(2) is
also not at odds with the use-based construction that
the Commissioner and the Attorney General of Maine
put forth. If anything, in light of Espinoza, that phrase
accords with a reading of § 2951(2) that would ensure
the inquiry into whether a school is “nonsectarian”

App. 37
does not turn solely on whether it is religiously afﬁliated or controlled but depends instead on the sectarian
nature of the instruction that it will provide to tuition
assistance beneﬁciaries. See Nat’l Pharmacies, Inc. v.
Feliciano-de-Melecio, 221 F.3d 235, 241-42 (1st Cir.
2000) (“[F]ederal courts are . . . instructed to render interpretations of state law by using the same methods
that the state court would use, . . . including the
principle that statutes should ordinarily be given a
constitutional interpretation where fairly possible.”);
Portland Pipe Line Corp. v. Env’t Improvement
Comm’n, 307 A.2d 1, 15 (Me. 1973) (“[I]f . . . provisions
of [an] Act are susceptible of a reasonable interpretation which would satisfy constitutional requirements
. . . we are bound to adopt that interpretation.”).
Reinforcing our reasons to accept the proffered
use-based construction of the “nonsectarian” requirement is the fact that the plaintiffs develop no contrary
argument as to how this provision should be construed.
They thus provide us with no reason to reject the representations by the Commissioner and the Maine Attorney General that the restriction is use based.
The United States, for its part, did contend for the
ﬁrst time at oral argument that we could consider the
Maine Law Court’s statement in Bagley in 1999 that
§ 2951(2) “explicitly excludes only those private
schools with religious afﬁliations,” 728 A.2d at 137.
But, that passage, in context, does not indicate that the
Maine Law Court – prior to Trinity Lutheran and Espinoza – meant to take a position regarding the
use/status distinction, such that we may reject the

App. 38
contrary representation made to us by Maine’s Attorney General and the Commissioner. Cf. Forsyth County
v. Nationalist Movement, 505 U.S. 123, 131 (1992) (“In
evaluating respondent’s facial challenge, we must consider the county’s authoritative constructions of the ordinance, including its own implementation and
interpretation of it.”); Cutting v. City of Portland, 802
F.3d 79, 84 (1st Cir. 2015) (recognizing that we “may
read a law in light of the limits set forth in a government’s ‘authoritative[ ] constru[ction]’ of that law if
doing so would ‘render [that law] constitutional’ ” (alterations in original) (quoting City of Lakewood v.
Plain Dealer Publ’g Co., 486 U.S. 750, 770 n.11 (1988))).
We do not dispute that, as the United States asserts, some beneﬁts restrictions that are nominally
based on religious use are solely based on religious status. See Ofﬁce of Legal Counsel, Religious Restrictions
on Capital Financing for Historically Black Colleges
and Universities, 2019 WL 4565486, at *15 (Aug. 15,
2019) (“To consider all activities of a religious school to
be ‘related to’ sectarian instruction, and prohibit funding for the school on that basis, would risk collapsing
the distinction between religious status and religious
use. . . .”). But, even if that may be so in some instances, the record supports the Commissioner’s representation that this restriction is not of that kind, and
neither the plaintiffs nor the United States develops
an argument that it is status based in disguise.5

5

At oral argument, the United States suggested that some
evidence in the record raises a question as to whether the

App. 39
Accordingly, we proceed on the understanding that
this restriction, unlike the one at issue in Espinoza,
does not bar schools from receiving funding simply
based on their religious identity – a status that in and
of itself does not determine how a school would use the
funds that it receives to provide educational instruction. See Espinoza, 140 S. Ct. at 2261 (explaining that
“[a] State need not subsidize private education[,] [b]ut
once a State decides to do so, it cannot disqualify some
private schools solely because they are religious” (emphasis added)). Instead, we understand this restriction
to bar BCS and TA from receiving the funding based
on the religious use that they would make of it in instructing children in the tuition assistance program.6

Department applies the criteria for determining whether a school
is “nonsectarian” exactly how Commissioner Hasson described.
But, it did not make that argument in its brief to us, nor did the
plaintiffs themselves. See Piazza v. Aponte Roque, 909 F.2d 35,
37 (1st Cir. 1990) (“Except in extraordinary circumstances not
present here, a court of appeals will not consider an issue raised
for the ﬁrst time at oral argument.”). In any event, the treatment
identiﬁed does not concern either BCS or TA.
6
For that reason, we need not and do not decide whether the
Commissioner is right that, under Espinoza, it would be permissible to restrict funding here based solely on a school’s religious
status due to the nature of Maine’s tuition assistance program (as
it provides funding for only the rough equivalent of the public
school education that is not available in SAUs that operate no
public secondary school of their own), the state’s assertedly compelling interest in declining to fund discrimination based on sexual orientation or gender identity, or, for that matter, some other
reason, see Locke, 540 U.S. at 718-19 (discussing the “play in the
joints” between the Establishment Clause and the Free Exercise
Clause (quoting Walz v. Tax Comm’n, 397 U.S. 664, 669 (1970))).

App. 40
c.
That brings us to the plaintiffs’ contention that
the “nonsectarian” requirement is subject to strict
scrutiny even if it is use- rather than solely statusbased.7 Here, the plaintiffs rely not on any controlling
Supreme Court authority but on Justice Gorsuch’s concurrence in Trinity Lutheran, which Justice Thomas
joined and which Espinoza itself noted in explaining
that “[s]ome Members of the Court . . . have questioned
whether there is a meaningful distinction between discrimination based on use or conduct and that based on
status.” 140 S. Ct. at 2257 (citing Trinity Lutheran, 137
S. Ct at 2025 (Gorsuch, J., concurring) (stating that he
“harbor[s] doubts about the stability of such a line” between “discriminat[ion] on the basis of religious status
and religious use”)).8 We are not persuaded.
The plaintiffs are right that Justice Gorsuch’s
Trinity Lutheran concurrence questioned the import of
Because no solely status-based restriction is in place, no such
question is before us.
7
The plaintiffs do not argue that the “nonsectarian” requirement violates the Free Exercise Clause if it is subject only to rational basis review because it is use based. They do argue in
connection with their Equal Protection Clause challenge that this
restriction cannot survive even that more forgiving form of review. To the extent the plaintiffs mean to press that same contention in connection with their free exercise challenge, it fails for
the same reasons we give below for rejecting that contention in
addressing that challenge. See infra.
8
The United States, relying on this concurrence, emphasizes
that the line between religious use and religious status “may
sometimes be difﬁcult to draw.” But, the United States does not
assert that no such line may be drawn here.

App. 41
the status/use distinction to the level-of-scrutiny determination. It explained that the Free Exercise Clause
“guarantees the free exercise of religion, not just the
right to inward belief (or status)” and that “[g]enerally
the government may not force people to choose between participation in a public program and their right
to free exercise of religion.” 137 S. Ct. at 2026 (Gorsuch,
J., concurring) (second emphasis added). Therefore, the
concurrence argued, it should not “matter whether we
describe that beneﬁt, say, as closed to Lutherans (status) or closed to people who do Lutheran things (use).”
Id.
We note also that Justice Gorsuch reasserted this
same line of reasoning in his concurrence in Espinoza.
In emphasizing that “[o]ur cases have long recognized
the importance of protecting religious actions, not just
religious status,” that concurrence noted that “we have
recognized the First Amendment’s protection for religious conduct in public beneﬁts cases.” Espinoza, 140
S. Ct. at 2276-77 (Gorsuch, J., concurring). When the
government offers beneﬁts, it argued, “those beneﬁts
necessarily affect the ‘baseline against which burdens
on religion are measured.’ ” Id. (quoting Locke, 540 U.S.
at 726 (Scalia, J., dissenting)). Thus, the concurrence
explained, in Sherbert v. Verner, 374 U.S. 398 (1963),
and Thomas v. Review Board of Indiana Employment
Security Division, 450 U.S. 707 (1981), the government’s denial of beneﬁts solely “because of conduct
mandated by religious belief ” ran afoul of the Free Exercise Clause. Espinoza, 140 S. Ct. at 2277 (Gorsuch,
J., concurring) (quoting Thomas, 450 U.S. at 718).

App. 42
There is no doubt that Justice Gorsuch’s concurrences support the uncontroversial proposition that a
restriction on the availability of tuition assistance to
Mainers who go to church would violate the Free Exercise Clause, even though nominally that restriction
would target their religious conduct rather than their
religious status. But, this restriction is not like that, as
it limits the beneﬁt to only those who would use it for
nonsectarian instruction. It thus does not target any
religious activity apart from what the beneﬁt itself
would be used to carry out.
That is important because nothing in either one of
Justice Gorsuch’s concurrences suggests that the government penalizes a fundamental right simply because it declines to subsidize it. See Regan v. Taxation
with Representation of Wash., 461 U.S. 540, 549 (1983)
(“[A] legislature’s decision not to subsidize the exercise
of a fundamental right does not infringe the right, and
thus is not subject to strict scrutiny.”). Thus, even under the rationale set forth in Justice Gorsuch’s concurrences, we still must determine the baseline that
Maine has set by the beneﬁt that it has made available
through the tuition assistance program. For, only by
doing so can we determine whether, given that baseline, the “nonsectarian” requirement merely reﬂects
Maine’s refusal to subsidize religious exercise (by excluding only those who are seeking a distinct beneﬁt)
or instead penalizes religious exercise (by excluding
those who seek the very same beneﬁt as everyone else
solely based on the religious things they do).

App. 43
From this vantage, we ﬁnd it signiﬁcant that
Maine provides tuition assistance only to those who
cannot get the beneﬁts of a free public school education
directly from their SAU. That limitation on the program’s scope – which is itself not based on either a recipient’s religious use or status – reveals that the
program is designed “to ensur[e],” as the Commissioner puts it, that students who cannot get a public
school education from their own SAU can nonetheless
get an education that is “roughly equivalent to the education they would receive in public schools.” See Hallissey v. Sch. Admin. Dist. No. 77, 755 A.2d 1068, 1073
(Me. 2000) (“Within the statutory scheme, section
5204(4)’s function is limited to authorizing the provision of tuition subsidies to the parents of children who
live within school administrative units that simply do
not have the resources to operate a public school system, and whose children would otherwise not be given
an opportunity to receive a free public education.”).
We ﬁnd it signiﬁcant, too, for purposes of deﬁning
the baseline, that the state deﬁnes the kind of educational instruction that public schools provide as secular instruction, based on its “interest in maintaining a
religiously neutral public education system in which
religious preference is not a factor.” See, e.g., 121 Me.
Legis. Rec. S-640 (1st Reg. Sess. May 14, 2003) (statement of Sen. Martin) (“Because we retain a responsibility of a publicly funded education, we must look
carefully at what we believe is an appropriate form of
education for our children.”). For while that restriction
on the content of public school instruction is religion

App. 44
based, it is also wholly legitimate, as there is no question that Maine may require its public schools to
provide a secular educational curriculum rather than
a sectarian one. See, e.g., Sch. Dist. of Abington v.
Schempp, 374 U.S. 203, 226 (1963); Epperson v. Arkansas, 393 U.S. 97, 106-07 (1968).
Putting these two points together, we conclude
that, given the baseline that Maine has set through the
beneﬁt provided by the tuition assistance program, the
plaintiffs in seeking publicly funded “biblically-integrated” or religiously “intertwined” education are not
seeking “equal access” to the beneﬁt that Maine makes
available to all others – namely, the free beneﬁts of a
public education. The plaintiffs are right that, from all
the record indicates, BCS is “approved” by the Department for attendance purposes, and TA meets the requirements to be “approved” as such. See Me. Stat. tit.
20-A, § 2901. But, they are wrong to argue that it follows that either school for that reason offers a type of
educational instruction that is so like what a public
school provides that it is necessarily a good substitute
for a public school education. That Maine’s public
schools cannot provide pervasively sectarian instruction demonstrates that the beneﬁt that Maine provides
no more sets a baseline that requires the state to subsidize sectarian instruction than an SAU’s funding of
its own public secondary school would set one that
would require it to provide funding for sectarian education as well.
To be sure, by making the free beneﬁts of public
education available to children in SAUs that do not

App. 45
operate their own public secondary schools, Maine
makes tuition assistance available to some students
who might have chosen a private secular education if
they lived in an SAU with a public secondary school.9
But, Maine need not for that reason also sweep in those
children who would opt out of the public option in favor
of a private sectarian education no matter where they
lived, precisely because Maine has permissibly concluded that the beneﬁt of a free public education is tied
to the secular nature of that type of instruction. See
Schempp, 374 U.S. at 226; W. Va. State Bd. of Educ. v.
Barnette, 319 U.S. 624, 637 (1943).10

9

The plaintiffs make no argument that the tuition assistance program could operate without including any private
schools. Given that Maine is “still largely rural” and that so many
of its SAUs do not operate public secondary schools, there is no
reason to think that this would be feasible. Maine has long relied
on private academies to ﬁll gaps where public secondary school
education is not accessible. See Br. for Maine School Boards Assoc. & Maine School Superintendents Assoc. at 5-9.
10
For this reason, the state’s interest in avoiding the diversion of resources from its public education program is not “underinclusive” in the way that Espinoza found Montana’s asserted
interest in “ensuring that government support is not diverted to
private schools” to be, 140 S. Ct. at 2261. In addition, there is a
legitimate reason for the tuition assistance program in Maine to
include private secular schools, just as there is a legitimate interest, aside from the general interest in protecting against the diversion of funds for public education, in Maine not paying for
sectarian education through that program. Given the way that
Maine has structured SAUs’ options for extending the beneﬁts of
free public education, tuition assistance to private secular schools
serves not to divert funds from the public education system but
rather to provide an alternative mechanism to extend the beneﬁts

App. 46
Our conclusion on this score accords with the free
exercise rulings in Thomas and Sherbert that Justice
Gorsuch’s Espinoza concurrence invokes. See Espinoza, 140 S. Ct. at 2276 (Gorsuch, J., concurring).
Those cases considered limitations on unemployment
beneﬁts that deemed a refusal to work compelled by
one’s religious faith “without good cause,” Sherbert,
374 U.S. at 401 (quoting S.C. Code Ann. § 68-114
(1952)); Thomas, 450 U.S. at 709 n.1 (quoting Ind. Code
§ 22-4-15-1), even though a non-faith-based reason for
refusing to work was deemed to be for good cause. See
Sherbert, 374 U.S. at 399-401 (considering a state’s denial of unemployment beneﬁts to a woman because she
refused to labor on “the Sabbath Day of her faith”);
Thomas, 450 U.S. at 709-12 (considering a state’s denial of unemployment beneﬁts when the plaintiff had
resigned from his job “because his religious beliefs forbade participation in the production of armaments”).
Such a differential assessment of what constituted
good cause for not working was deemed to reﬂect, necessarily, a devaluation of religious motivations, Bowen
v. Roy, 476 U.S. 693, 708 (1986) (plurality opinion);
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 537-38 (1993), and thus “tend[ed] to
exhibit hostility” toward religion, Roy, 476 U.S. at 708.
There is no such concern presented here. Because
Maine permissibly requires public educational instruction to be nonsectarian for reasons that reﬂect no hostility to religion, it betrays no hostility toward religion
of that public education system to children in Maine who otherwise would be denied them.

App. 47
when it imposes a use-based “nonsectarian” restriction
on the public funds that it makes available for the purpose of providing a substitute for the public educational instruction that is not otherwise offered. As we
put it in Eulitt, “state entities, in choosing how to provide education, may act upon their legitimate concerns
about excessive entanglement with religion, even
though the Establishment Clause may not require
them to do so.” 386 F.3d at 355 (emphasis added).11
We recognize that, in so stating, Eulitt relied on
Locke. Potentially, that is of concern. After all, although Trinity Lutheran and Espinoza addressed
solely status-based aid restrictions, each distinguished
Locke in consequence of the nature of the use-based
restriction that it involved rather than simply in consequence of the fact that the restriction was use based.
Trinity Lutheran, 137 S. Ct. at 2023; Espinoza, 140
S. Ct. at 2257. In particular, Espinoza noted that in
Locke the state permitted the scholarship funds to be
used at a “pervasively religious school[ ]” so long as the
student was not pursuing a devotional theology degree
there, 140 S. Ct. at 2257 (quoting Locke, 540 U.S. at
11

Once a state opens up the possibility that private schooling
in general may serve as a substitute for the instruction that a
public school provides, it may be that a private school’s control by
or afﬁliation with a religious institution in and of itself could not
sufﬁce to render its educational instruction an inadequate substitute under the Free Exercise Clause, based on the logic of Sherbert and Thomas. We do not address whether such a solely statusbased restriction in the context of a tuition assistance program
structured as Maine’s is would raise that concern, though, as we
have here a restriction that targets only the use of the tuition assistance for sectarian instruction itself.

App. 48
724),12 and that it did so in accord with the unique tradition against state support for clerical training, id. at
2257-59. By contrast, Espinoza explained, the no-aid
provision in the Montana Constitution was not so tailored, id. at 2257, and no similar tradition supported a
ban on state support for religious schools, id. at 2259.
But, even if Espinoza suggests that Locke is a narrower ruling than Eulitt understood it to be, we do not
read Espinoza to hold that a use-based restriction
on school aid necessarily violates the Free Exercise
Clause unless it mimics the restriction in Locke. Espinoza certainly does not expressly set forth any such
rule. And here, the “nonsectarian” requirement operates not as a restriction on the provision of general aid
to private schools but as part and parcel of Maine’s
means of providing the beneﬁts of a free public education to those who otherwise cannot obtain them because such education is not otherwise available at all.
Thus, even accounting for Espinoza’s discussion of
Locke, the “nonsectarian” requirement neither “punishes” a recipient solely for being controlled by or afﬁliated with a religious institution nor imposes a
“penalty” for doing religious things. Rather, it limits a
subsidy that the state may permissibly restrict to
those schools – whether or not religiously afﬁliated or
12

Trinity Lutheran also noted that Locke “went ‘a long way
toward including religion in its beneﬁts’ ” for the additional reason that a student in the scholarship program could “use his
scholarship to pursue a secular degree at one institution while
studying devotional theology at another.” 137 S. Ct. at 2023 (quoting Locke, 540 U.S. at 724).

App. 49
controlled – that provide, in the content of their educational instruction, a rough equivalent of the public
school education that Maine may permissibly require
to be secular but that is not otherwise accessible. See
Eulitt, 386 F.3d at 354 (“The fact that the state cannot
interfere with a parent’s fundamental right to choose
religious education for his or her child does not mean
that the state must fund that choice.”).
Nor, we should add, is it evident how Maine could
craft any more tailored restriction to serve the discrete
and permissible end this tuition assistance program
serves without intruding into private religious practice
in ways that it reasonably may want to avoid for reasons at least consonant with the Religion Clauses. Cf.
Eulitt, 386 F.3d at 355-56; Bagley, 728 A.2d at 147.
Given limited public funds, the state’s rural character,
and the concomitant scarcity of available public school
options for residents of many SAUs, we do not see why
the Free Exercise Clause compels Maine either to
forego relying on private schools to ensure that its residents can obtain the beneﬁts of a free public education
or to treat pervasively sectarian education as a substitute for it. Cf. Espinoza, 140 S. Ct. at 2254 (recognizing
that there is “play in the joints” between the Religion
Clauses (quoting Trinity Lutheran, 137 S. Ct. at
2019)); Locke, 540 U.S. at 719 (“This case involves that
‘play in the joints. . . .’ ”). We turn, then, to the plaintiffs’ other free exercise contention, which concerns
whether the “nonsectarian” requirement is the product
of religious animus.

App. 50
2.
Here, Espinoza and Trinity Lutheran ﬁgure much
less prominently. In fact, the latter did not mention animus at all and the former referred to animus only in
discussing whether there was a tradition against state
support of religious schools that could create a “ ‘historic and substantial’ state interest” per Locke. See Espinoza, 140 S. Ct. at 2257-58 (quoting Locke, 540 U.S.
at 725).
Espinoza explained in that regard that such a tradition should not “inform our understanding of the
Free Exercise Clause,” given the “checkered” history
that many no-aid provisions share with the Blaine
Amendment of the 1870s. Id. at 2258-59. But, the
Blaine Amendment is not at issue here, and, in fact,
Maine’s constitution never contained such a “no-aid”
clause. See Bagley, 728 A.2d at 132 n.8.
Thus, nothing in Espinoza – or Trinity Lutheran –
calls into question our treatment of animus in Eulitt,
in which we held that it played no part in the enactment of § 2951(2). See Eulitt, 386 F.3d at 355 (finding
that § 2951(2) “passes [Locke’s] test” “for smoking out
an anti-religious animus” “with flying colors”). In fact,
our conclusion that the provision bars only religious
uses within a program that is a substitute for a free,
secular public education reinforces that conclusion.
See, e.g., Zorach v. Clauson, 343 U.S. 306, 314 (1952)
(accepting that “[g]overnment may not . . . undertake religious instruction” in the course of rejecting
“a requirement that the government show a callous

App. 51
indifference to religious groups”). No exception to the
law-of-the-circuit doctrine is appropriate here; Trinity
Lutheran and Espinoza do not “undermine[ ]” our
treatment of the animus issue in Eulitt nor do those
opinions even “call[ ] into legitimate question” our
analysis. Eulitt, 386 F.3d at 349-50. Accordingly, these
two recent cases present no grounds to deviate from
Eulitt when considering animus.
The plaintiffs do separately press their animus
claim by analogizing certain statements that Maine
legislators made while the state legislature considered
(and rejected) an attempt to repeal the “nonsectarian”
requirement in the wake of Zelman (and before Eulitt)
to the statements of state civil rights commission
members that the Supreme Court, post-Eulitt, considered in Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, 138 S. Ct. 1719 (2018). But, the
Supreme Court found the statements in Masterpiece
Cakeshop concerning because they were made in the
speciﬁc context of “an adjudicatory body deciding a
particular case.” Id. at 1730. Thus, that precedent provides no reason for us to depart from Eulitt’s holding
as to animus.
C.
In sum, as in Eulitt, we have once again considered our prior precedent upholding the “nonsectarian”
requirement against a free exercise challenge with the
aid of fresh precedent from the Supreme Court. But,
due to the nature of the restriction at issue and the

App. 52
nature of the school aid program of which it is a key
part, we conclude, once again, that the “nonsectarian”
requirement does not violate the Free Exercise Clause.
We thus turn our attention to the plaintiffs’ other federal constitutional challenges.
IV.
First up is the plaintiffs’ contention that the “nonsectarian” requirement violates the Free Speech
Clause of the First Amendment. Reviewing de novo,
see United States v. Floyd, 740 F.3d 22, 38 (1st Cir.
2014), we see no merit to it.
The barrier here is Eulitt. As we explained there,
Maine’s tuition assistance program “deals with the
provision of secular secondary educational instruction
to its residents; it does not commit to providing any
open forum to encourage diverse views from private
speakers.” 386 F.3d at 356; see also id. (explaining that
“[c]onsequently, cases dealing with speech fora – such
as Rosenberger v. Rector & Visitors of Univ. of Va., 515
U.S. 819 (1995) . . . – are not relevant”). Given that the
plaintiffs point to no post-Eulitt developments that call
it into question, that prior precedent of ours controls
here.
V.
We next consider the plaintiffs’ equal protection challenge, which is based on the alleged religious
discrimination that the “nonsectarian” requirement

App. 53
effects. Again reviewing de novo, see Floyd, 740 F.3d at
38, we conclude that here as well Eulitt stands in the
way.
Eulitt explained that where a “challenged program comports with the Free Exercise Clause, that
conclusion wraps up the religious discrimination analysis,” such that “any further equal protection inquiry”
need pass only rational basis review. 386 F.3d at 354
(citing Locke, 540 U.S. at 720 n.3; and Johnson v. Robison, 415 U.S. 361, 375 n.14 (1974)).13 Neither Espinoza
nor Trinity Lutheran addressed the equal protection
claims the plaintiffs there presented, Espinoza, 140
S. Ct. at 2263 n.5; Trinity Lutheran, 137 S. Ct. at 2024
n.5, and so Eulitt controls on that point.
In addition, even though the Eulitt plaintiffs conceded that their equal protection claim would fail if rationality review applied, Eulitt did suggest that the
rational basis test was easily satisﬁed. 386 F.3d at 356.
Thus, the plaintiffs need to explain why that conclusion is not decisive here. To do so, they invoke the Supreme Court’s decision in Romer v. Evans, 517 U.S. 620
(1996), and the Ninth Circuit’s decision in Christian
Science Reading Room Jointly Maintained v. City &
13

To the extent that the resolution of a free exercise claim
determines the level of scrutiny applied to the equal protection
challenge only insofar as the asserted equal protection violation
is rooted in the implication of a fundamental right, we note, as we
did in Eulitt, the “hopelessness of any effort to suggest that those
who choose to send their children to religious schools comprise a
suspect class,” 540 F.3d at 353 n.3; see also Johnson, 415 U.S. at
375 n.14.

App. 54
County of San Francisco, 784 F.2d 1010 (9th Cir. 1986).
But, neither case is on point.
Romer held that Colorado’s proffered rationales
for a sweeping state constitutional amendment that
denied persons protection based on their being “homosexual” were “so far removed” from the breadth of the
provisions that it was “impossible to credit” them. 517
U.S. at 624, 635. Here, however, the link between the
state interest and the “nonsectarian” requirement is
clear given the state’s interest – rooted in its state constitution – in making the beneﬁts of a free public education available.
Christian Science Reading Room also offers no
help to the plaintiffs. There, the Ninth Circuit analyzed the San Francisco Airport Commission’s decision
to terminate the tenancy of a religious organization
under rational basis review. 784 F.2d at 1010, 1012-13.
It found that the policy could not be said to “further[ ]
the governmental purpose in any way” where it had
been adopted to remedy an Establishment Clause violation that did not actually exist. Id. at 1016.
But, even if we were to assume that any perceived
Establishment Clause violation would be similarly illusory here, “a classiﬁcation ‘must be upheld against
equal protection challenge if there is any reasonably
conceivable state of facts that could provide a rational
basis for the classiﬁcation.’ ” Heller v. Doe, 509 U.S. 312,
320 (1993) (quoting FCC v. Beach Commc’ns, 508 U.S.
307, 313 (1993)). Thus, in challenging the statute, the
plaintiffs “must negate every plausible basis that

App. 55
conceivably might support it.” Boivin v. Black, 225 F.3d
36, 44 (1st Cir. 2000).
Eulitt, however, identiﬁed multiple rationales – all
consonant with Maine’s interest in ensuring that the
public’s funds go to support only the rough equivalent
of a public education – for the “nonsectarian” requirement in the course of explaining why the plaintiffs’
concession that their equal protection claim would fail
under rational basis review was “understandable”:
[T]he legislative history clearly indicates
Maine’s reasons for excluding religious
schools from education plans that extend public funding to private schools for the provision
of secular education to Maine students. These
reasons include Maine’s interests in concentrating limited state funds on its goal of
providing secular education, avoiding entanglement, and allaying concerns about accountability that undoubtedly would accompany
state oversight of parochial schools’ curricula
and policies.
386 F.2d at 356. Yet, rather than address (much less
negate) any of these purposes, the plaintiffs contend
that the adoption of the “nonsectarian” requirement
was based only on the state’s “erroneous belief that the
Establishment Clause required it to do so.” See Christian Science Reading Room, 784 F.2d at 1013; see also
id. at 1013 n.2 (“[A] court should not consider a hypothesized purpose if it is clear that ‘the asserted purpose
could not have been a goal of the [policy].’ ” (alteration

App. 56
in original) (quoting Weinberger v. Wisenfeld, 420 U.S.
636, 648 n.16 (1975))).
But, we cannot conclude – and the plaintiffs do not
explain how we could – that the other rationales for
the “nonsectarian” requirement that Eulitt found present in the legislative history “could not have been a
goal of the legislation,” Weinberger, 420 U.S. at 648
n.16. Thus, the plaintiffs’ equal protection challenge
necessarily fails. See Eulitt, 386 F.3d at 356 (explaining that under rational basis scrutiny, “the appellants
bear the burden of demonstrating that there exists no
fairly conceivable set of facts that could ground a rational relationship between the challenged classiﬁcation and the government’s legitimate goals”).
VI.
That leaves only the plaintiffs’ contention that the
Establishment Clause requires Maine to include sectarian schools in the tuition beneﬁt program. Our review is, again, de novo. See Floyd, 740 F.3d at 38.
The plaintiffs assert that § 2951(2) violates the
Establishment Clause by excessively entangling the
state with religion, see Lemon v. Kurtzman, 403 U.S.
602, 612-13 (1971), as it requires “government ofﬁcials
to engage in detailed inquiries of private schools to determine the ‘religiosity’ of private schools that seek approval for tuition purposes.” Appellants’ Br. at 38-39.
The chief problem for the plaintiffs is that none of
the authority that they rely on indicates that the

App. 57
Establishment Clause requires the extension of a beneﬁt to include religious uses in the absence of any ﬁnding of religious discrimination. In fact, Strout noted
that “[t]here is no relevant precedent for using [the Establishment Clause’s] negative prohibition [against
making a law respecting the establishment of any religion] as a basis for extending the right of a religiously
afﬁliated group to secure state subsidies,” 178 F.3d
at 64, and the plaintiffs identify no supportive postStrout authority.
The plaintiffs do cast post-Strout cases like Zelman as if they stand for the proposition that the
Establishment Clause demands such inclusion. But,
those cases merely rejected attempts to use that
Clause as a sword. See, e.g., Zelman, 536 U.S. at 64955. They do not support the claim that a requirement
that otherwise permissibly limits the scope of a beneﬁt
to secular uses gives rise to an Establishment Clause
violation just because it triggers an inquiry into
whether a proposed use of that beneﬁt would be secular. Cf. Lukumi, 508 U.S. at 532 (holding that, although
“Establishment Clause cases . . . have often stated the
principle that the First Amendment forbids an ofﬁcial
purpose to disapprove of a particular religion or of religion in general,” it is the “Free Exercise Clause [that]
is dispositive” when what is at issue is not a “governmental effort[ ] to beneﬁt religion or particular religions” but rather “an attempt to disfavor . . . religion”).
In any event, the record demonstrates that schools
seeking to be “approved” generally self-identify as
“sectarian” or “nonsectarian,” and the Commissioner

App. 58
explained that “if there is ever a question, the determination of whether a school is secular could readily be
made by looking at objective factors such as mandatory
attendance at religious services and course curricula.”
And, consistent with that conclusion, the plaintiffs
point only to two instances in which the Department
inquired into the ways private schools other than BCS
or TA seeking to be “approved” for tuition purposes incorporated religious training. Given that the inquiry is
undertaken for purposes of ensuring the educational
instruction provided by an applicant will mirror the
secular educational instruction provided at Maine’s
public schools, such evidence cannot sufﬁce to supply
evidence of the kind of entanglement that could rise to
the level of an Establishment Clause violation in this
context, if any could. See Santa Fe Indep. Sch. Dist. v.
Doe, 530 U.S. 290, 314 (2000) (concluding that it was
proper to consider “whether the statute has an unconstitutional purpose,” in addition to focusing on the application of the statute, in “Establishment Clause cases
involving facial challenges”); Tilton v. Richardson, 403
U.S. 672, 687 (1971) (noting that entanglement concerns are lessened where there is less risk that “government aid will in fact serve to support religious
activities”). Nor, ﬁnally, do the plaintiffs assert any entanglement concern as applied to them speciﬁcally,
which is no surprise as neither TA nor BCS has yet applied to be “approved” to receive tuition assistance.
The plaintiffs do separately contend that the “nonsectarian” requirement “establish[es] a ‘religion of
secularism’ in the sense of afﬁrmatively opposing or

App. 59
showing hostility toward religion.” Appellants’ Br. at
37 (quoting Schempp, 374 U.S. at 225). But, any family
in Maine that prefers a sectarian education for their
children to the secular one Maine provides as a public
option can pay the tuition for their child to receive such
an education. So, because that public educational option may be secular, this contention also goes nowhere.
Thus, for this reason as well, the plaintiffs’ Establishment Clause challenge fails.
VII.
Maine’s Constitution instructs the state’s legislature to ensure that its local institutions have the
means to provide the beneﬁts of a free public education
to their children. There is no question that Maine may
ensure that such a public education is a secular one,
just as there is no question that the Free Exercise
Clause ensures that Mainers, like all Americans, are
free to opt for a religious education for their children if
they wish.
The difﬁculty Maine confronts is that many of its
localities cannot feasibly provide the beneﬁts of that
free public education directly to their residents. Thus,
Maine has had to adapt to that reality. In doing so, it
has chosen to provide – while still ensuring that any
parent in Maine may send their child to a religious
school at their own expense – tuition assistance for
those children who live in localities that operate no
public secondary school of their own to attend a private

App. 60
school that will provide a substitute for what they cannot get from the government.
In conditioning the availability of that assistance
on the requirement that recipients use it for educational instruction that is as nonsectarian in content as
the free public education that is not directly available
to them, Maine transgresses neither the Free Exercise
Clause nor the Establishment Clause, nor any of the
other provisions of the federal Constitution that the
plaintiffs invoke. Rather, it permissibly satisﬁes a commitment, rooted in its own founding charter, to pursue
the wholly legitimate end of ensuring the distribution
of the beneﬁts of a free public education even to those
who happen to live in places that cannot provide it of
their own accord.
The judgment of the District Court is afﬁrmed.

App. 61
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-1746
DAVID CARSON, as parent and next friend of O.C.;
AMY CARSON, as parent and next friend of O.C.;
ALAN GILLIS, as parent and next friend of I.G.;
JUDITH GILLIS, as parent and next friend of I.G.;
TROY NELSON, as parent and next friend of
A.N. and R.N.; ANGELA NELSON, as
parent and next friend of A.N. and R.N.,
Plaintiffs, Appellants,
v.
A. PENDER MAKIN, in her ofﬁcial capacity as
Commissioner of the Maine Department of Education,
Defendant, Appellee.
-----------------------------------------------------------------------

JUDGMENT
Entered: October 29, 2020
This cause came on to be heard on appeal from the
United States District Court for the District of Maine
and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The judgment
of the district court is afﬁrmed.
By the Court:
Maria R. Hamilton, Clerk

App. 62
cc: Jeffrey Thomas Edwards, Lea Patterson, Timothy
Keller, Arif Panju, Jonathan R. Whitehead, Michael K.
Whitehead, Christopher C. Taub, Sarah A. Forster,
Stephen C. Whiting, Zachary Heiden, Daniel Mach,
Heather L. Weaver, Alexander Joseph Luchenitser,
Richard Brian Katskee, Emma Bond, Sarah Goetz, Andrew T. Mason, Kristen Hollar, Samuel T. S. Boyd, Jessica Levin, Thomas E. Chandler, Julia M. Lipez, Elliott
M. Davis, Vivek Suri, Joshua D. Dunlap, Russell Menyhart, Leslie Davis Hiner, Mordechai Biser, Jay Sekulow, Samuel T. Grover, Bruce W. Smith, Malina Dumas,
Francisco Maria Negron Jr., John C. Foskett, Jennifer
Mathis

App. 63
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
DAVID AND AMY CARSON, )
on their own behalf and as )
next friends of their child, )
O.C.; ALAN AND JUDITH
)
GILLIS, on their own behalf )
and as next friends of their )
child, I.G.; AND TROY AND
)
ANGELA NELSON, on
)
their own behalf and as
)
Civil No.
next friends of their
)
1:18-cv-327-DBH
children, A.N. and R.N.,
)
PLAINTIFFS
)
)
v.
)
A. PENDER MAKIN, in
)
his ofﬁcial capacity as
)
Commissioner of the Maine )
Department of Education, )
DEFENDANT
)
DECISION AND ORDER ON
CROSS-MOTIONS FOR JUDGMENT
ON A STIPULATED RECORD
(Filed Jun. 26, 2019)
This case concerns the application of the First
Amendment religion clauses to Maine’s funding of secondary education—namely its exclusion of sectarian
schools from its program of paying tuition to parentchosen private schools when local government does not

App. 64
provide a public school. A number of amici curiae have
demonstrated their interest in the issue by ﬁling legal
memoranda on both sides, and the United States has
ﬁled a statement of interest supporting the plaintiffs.
The parties initially ﬁled cross-motions for summary
judgment but at oral argument on June 24, 2019,
agreed to submit the case as cross-motions for judgment on a stipulated record.1
UNDERLYING FACTS
The parties have stipulated that Maine school administrative units must “either operate programs in
kindergarten and grades one to 12 or otherwise provide for students to participate in those grades as authorized elsewhere in this Title.”2 Of the 260 school
administrative units in Maine, 143 do not operate a
secondary school, including those that serve the plaintiffs’ towns of residence Glenburn, Orrington, and Palermo.3 Any school administrative unit like these “that
neither maintains a secondary school nor contracts for
secondary school privileges pursuant to chapter 115
1

Boston Five Cents Sav. Bank v. Sec’y of Dep’t of Hous. &
Urban Dev., 768 F.2d 5, 11-12 (1st Cir. 1985) (“to stipulate a record for decision allows a judge to decide any signiﬁcant issues of
material fact that he discovers; to ﬁle cross-motions for summary
judgment does not allow him to do so”) (emphasis in original). As
it turns out, I do not ﬁnd any issues of material fact to decide, but
judgment on a stipulated record is a cleaner approach than crossmotions for summary. judgment.
2
Joint Stipulated Facts ¶ 5 (quoting 20-A M.R.S.A. § 1001(8))
(ECF No. 25).
3
Id. ¶ 6.

App. 65
shall pay the tuition, in accordance with chapter 219,
at the public school or the approved private school of
the parent’s choice at which the student is accepted.”4
The school administrative units that serve the plaintiffs’ towns “do not contract for secondary school privileges with any particular public or private secondary
school for the education of their resident secondary
students.”5 Those school administrative units therefore
“are obligated to pay up to the legal tuition rate . . . to
the public or private school approved for tuition purposes selected by the resident secondary student’s parents.”6 But a “private school may be approved for the
receipt of funds for tuition purposes only if it . . . [i]s a
nonsectarian school in accordance with the First
Amendment of the United States Constitution.”7
It is this last requirement—that the parentselected private school be nonsectarian—that provokes this lawsuit.8
4

Id. ¶ 7 (quoting 20-A M.R.S.A. § 5204(4)).
Id. ¶ 9.
6
Id. ¶ 10.
7
Id. ¶ 14 (quoting 20-A M.R.S.A. § 2951(2)).
8
Maine’s educational approach has not changed materially
since this court and the First Circuit grappled with the same issue
in 2004. Eulitt ex rel. Eulitt v. Maine, Dep’t of Educ., 386 F.3d
344 (1st Cir. 2004), aff ’g 307 F. Supp. 2d 158 (D. Me. 2004). According to Eulitt, 386 F.3d at 346:
By statute, Maine commits to providing all school-aged
persons with “an opportunity to receive the beneﬁts of
a free public education,” Me. Rev. Stat. Ann. tit. 20-A,
§ 2(1) (West 2004), and vests authority in local school
districts to fulﬁll that undertaking by maintaining and
5

App. 66
ANALYSIS
Over the past many years, several court cases
have upheld the Maine approach to school choice when
the school administrative unit does not provide public
secondary education. See Strout v. Albanese, 178 F.3d
57 (1st Cir. 1999); Bagley v. Raymond Sch. Dep’t, 728
A.2d 127 (Me. 1999); Anderson v. Town of Durham, 895
A.2d 944 (Me. 2006); Joyce v. State, 951 A.2d 69 (Me.
2008). The latest federal case to do so is Eulitt ex. rel.
Eulitt v. Maine, Dep’t of Educ., 386 F.3d 344 (1st Cir.
2004), aff ’g 307 F. Supp. 2d 158 (D. Me. 2004). All those
cases ruled in favor of the state against First Amendment or Equal Protection challenges. What provokes
renewal of the dispute now, in the face of those many
past decisions, is a 2017 United States Supreme Court
decision, Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017). In Trinity Lutheran, the
Supreme Court held that it is a violation of the First
Amendment’s free exercise clause to deny a generally
available subsidy for rubberized playground surfaces
at preschool and daycare facilities solely on the ground
supporting elementary and secondary education, id.
§ 2(2), 4501. School districts, known in Maine’s bureaucratic argot as school administrative units, enjoy some
ﬂexibility in administering this guarantee. They may
satisfy the state mandate in any of three ways: by operating their own public schools, see id. § 1258(1), by
contracting with outside public schools to accept their
students, see id. § 1258(2), 2701; or by paying private
schools to provide such an education, see id. §§ 2951,
5204(4). State law bars a school district that exercises
the third option from paying tuition to any private sectarian school. Id. § 2951(2).

App. 67
that a church operates the facilities. According to the
plaintiffs, some of the amici, and the United States,
Trinity Lutheran has radically changed the constitutional landscape of First Amendment free exercise
challenges and ﬁnally makes Maine’s approach unconstitutional.
But Maine’s Attorney General says that, notwithstanding Trinity Lutheran, these plaintiffs (the parents of secondary school students) have no standing to
challenge the Maine law because there is no substantial likelihood that the sectarian schools to which they
want to send their children—Bangor Christian Schools
and Temple Academy—will even apply for state approval under section 2951(2). The Attorney General
gives two reasons: ﬁrst, the schools have not said they
will apply, only that they might “consider” doing so,
Def.’s Mot. For Summ. J. at 13 (ECF No. 29), citing
Joint Stipulated Facts ¶¶ 128, 182; second, that if they
receive public funds, the Maine Human Rights Act will
prohibit them from considering sexual orientation in
their employment decisions, and they have said they
are unwilling to alter their employment practices, id.,
citing Joint Stipulated Facts ¶¶ 127, 184.
The Attorney General’s arguments about the
schools pursuing state approval are plausible. I am
doubtful, for example, of the plaintiffs’ interpretation
of the Maine Human Rights Act. They argue that
because section 4554(4) deﬁnes employer to exclude
nonproﬁt religious organizations (except in cases of
disability discrimination) and section 4573-A(2) allows
religious entities to give preference in employment to

App. 68
people of their own religion and to require applicants
and employees to conform to their religious tenets—
neither provision refers to receipt of public funds—
religious schools are altogether exempt from the prohibition on considering sexual orientation in employment. But the 2005 law, Public Law of 2005 chapter 10,
that added sexual orientation as a prohibited form of
discrimination, stated that “a religious corporation, association or organization that does not receive public
funds is exempt from this provision with respect to . . .
[e]mployment” (codiﬁed as 5 M.R.S.A. § 4553(10)(G)
(emphasis added)).9 It is certainly arguable that this is
a narrower exemption and exempts only religious organizations that do not receive public funds when it
comes to sexual orientation discrimination. If that is
the correct interpretation of state law and if the
schools are ﬁrm in their desire not to change their employment criteria, their willingness to “consider” applying for approval for public funding may not go far.
But even if the plaintiffs cannot show that if I ﬁnd
the statute unconstitutional the two religious schools
to which they would like to send their children will in
fact seek approval under section 2951(2), I conclude
that the Attorney General’s standing argument fails
9

I recognize that, as the plaintiffs point out, Pls.’ Opp’n at 9
(ECF No. 46), that employment section goes on to say “as is more
fully set forth in section 4553, subsection 4, and section 4573-A,”
the provisions the plaintiffs rely upon, arguably thereby supporting their position. But that seems to read out of the statute the
phrase “does not receive public funds.” At the very least, the statute is ambiguous and might well deter the schools from proceeding to take public funds so as to avoid the risk.

App. 69
under the First Circuit’s decision in Eulitt. In Eulitt,
the court held that parents do not have standing to
raise the sectarian schools’ constitutional rights, only
their own. But Eulitt said that the parents “do have
standing in their own right to seek global relief in the
form of an injunction against the enforcement of section 2951(2) and a declaration of the statute’s unconstitutionality”:
The [parents] have established standing directly based on their allegation that section
2951(2) effectively deprives them of the opportunity to have their children’s tuition at [the
sectarian school they chose] paid by public
funding. Even though it is the educational institution, not the parent, that would receive
the tuition payments for a student whose “educational requirements” application was approved, it is the parent who must submit such
an application and who ultimately will beneﬁt
from the approval. Because section 2951(2)
imposes restrictions on that approval, the parents’ allegation of injury in fact to their interest in securing tuition funding provides a
satisfactory predicate for standing.
Eulitt, 386 F.3d at 353 (internal citation omitted).
There was no guarantee in Eulitt that the students
would in fact gain access to the sectarian school
there.10 That is the plaintiffs’ position in this case: they
10

In Eulitt, the school administrative unit sent 90% of its
students to a neighboring public high school, but sent up to 10%
to other private or public schools “so long as those students
can demonstrate that they have educational needs that [the

App. 70
seek the opportunity to ﬁnd religious secondary education for their children that would qualify for public
funding.11 I conclude that under Eulitt these parents/
plaintiffs have standing.12
I turn therefore to the issue whether Trinity Lutheran has effectively overruled the latest First Circuit
decision to uphold Maine’s educational funding approach, namely Eulitt. In that connection, it is necessary to consider my role as a federal trial judge. As a
federal trial judge, I must follow any decision from the
Court of Appeals for the First Circuit directly on point,
except in limited circumstances: “Until a court of appeals revokes a binding precedent, a district court
within the circuit is hard put to ignore that precedent
neighboring public school] cannot satisfy.” 386 F.3d at 346-47.
The Eulitts had not demonstrated that their daughters would
qualify.
11
I see no reason to limit them to the willingness of the two
schools they have identiﬁed; there may be other schools in existence or schools that will arise if funding is available. Until 1980,
such schools did exist before the legislature enacted the ban on
tuition to parent-selected sectarian schools. Joint Stipulated
Facts ¶¶ 18-19. Maine’s Law Court has said that “[o]ne of Maine’s
four Roman Catholic high schools, John Bapst High School, in
Bangor, closed as a result of being excluded from the education
tuition program.” Bagley v. Raymond Sch. Dep’t, 728 A.2d 127,
138 n. 19 (Me. 1999). It later reopened as a nonsectarian school,
John Bapst Memorial High School. Joint Stipulated Facts ¶¶ 2324.
12
The defendant says that the argument it makes was not
presented to the First Circuit in Eulitt. If that is so, it may be a
basis for persuading the First Circuit to abandon its standing decision in Eulitt. But I take the Eulitt precedent and language as
they are.

App. 71
unless it has unmistakably been cast into disrepute by
supervening authority.” Eulitt 386 F.3d at 349 (internal citations omitted) (emphasis added). Eulitt has certainly not been revoked. Has Trinity Lutheran
unmistakably cast Eulitt into disrepute? The answer
is no. Trinity Lutheran may well have given good
grounds to the plaintiffs to argue to the First Circuit
that that court should reconsider its Eulitt holding, but
it has not unmistakably cast the decision into disrepute such that I as a trial judge can ignore Eulitt. Here
is why. Eulitt based its decision on all the relevant
United States Supreme Court decisions up until then,
including Zelman v. Simmons-Harris, 536 U.S. 630
(2002), and Locke v. Davey, 540 U.S. 712 (2004). Trinity
Lutheran is the only later Supreme Court decision that
bears on the analysis.13 In Trinity Lutheran, while
holding that Missouri could not disqualify pre-school
programs from a subsidy for shredded tires on their
playgrounds solely because they were operated by a
church, four members of the Court (Justices Roberts,
Kennedy, Alito, and Kagan) said in footnote 3: “This
case involves express discrimination based on religious
identity with respect to playground resurfacing. We do
13

Trinity Lutheran, 137 S. Ct. at 2021 n. 2 (2017), does cite
a 2012 decision in a footnote, namely, Hosanna-Tabor Evangelical
Lutheran Church and School v. EEOC, 565 U.S. 171 (2012), for
this proposition: “This is not to say that any application of a valid
and neutral law of general applicability is necessarily constitutional under the Free Exercise Clause.” The Hosanna-Tabor case
applied a ministerial exception to the Americans with Disabilities
Act prohibition on employment retaliation because of the free exercise clause. No one has argued that the case has implications
for this controversy.

App. 72
not address religious uses of funding or other forms
of discrimination.” (emphasis added). Justice Breyer
(who did not concur in the opinion but only in the
judgment) focused on “the particular nature of the
‘public beneﬁt’ here at issue,” and “would leave the application of the Free Exercise Clause to other kinds of
public beneﬁts for another day.” 137 S. Ct. at 2027.
That totals a majority of justices (ﬁve) who have said
that Trinity Lutheran was not deciding such other issues.14 I cannot, as a trial judge, say that Eulitt therefore has unmistakably been cast into disrepute. It is
certainly open to the First Circuit to conclude that, after Trinity Lutheran, it should alter its Eulitt holding
that sustained Maine’s educational funding law,15 but
it is not my role to make that decision. I therefore apply
Eulitt to this controversy and do not decide the postTrinity Lutheran merits, nor the standard of review
that should apply in reaching the merits.16 Based upon
the Eulitt decision, I conclude that Maine’s educational
funding program is constitutional.

14

Justices Thomas and Gorsuch, who otherwise concurred in
the Court’s opinion, rejected footnote 3, Trinity Lutheran, 137
S. Ct. at 2025. It is doubtful that the two dissenters (Justices
Sotomayor and Ginsburg) would agree that Trinity Lutheran decided the broader question.
15
In Eulitt, the plaintiffs tried to focus their case on the constitutional equal protection clause, but the First Circuit made
clear that it had to consider the free exercise clause of the First
Amendment ﬁrst. 386 F.3d at 352-54.
16
The plaintiffs say that an exacting standard applies; the
defendant disagrees.

App. 73
My decision not to decide the ultimate question
the parties and amici pose—whether Trinity Lutheran
has changed the outcome in Eulitt—is no great loss for
either the parties or the amici. It has always been apparent that, whatever my decision, this case is destined to go to the First Circuit on appeal, maybe even
to the Supreme Court. In the First Circuit, the parties
can argue their positions about how Trinity Lutheran
affects Eulitt. I congratulate them on their written and
oral arguments in this court. I hope that the rehearsal
has given them good preparation for their argument in
the First Circuit (and maybe even higher). My prompt
decision allows them to proceed to the next level expeditiously.
Based upon Eulitt, I GRANT judgment on the
stipulated record to the defendant and DENY it to the
plaintiffs. The Clerk shall enter judgment accordingly.
SO ORDERED.
DATED THIS 26TH DAY OF JUNE, 2019
/s/ D. BROCK HORNBY
D. BROCK HORNBY
UNITED STATES
DISTRICT JUDGE

App. 74
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
DAVID and AMY CARSON,
on their own behalf and as
next friends of their child,
O.C.; ALAN and JUDITH
GILLIS, on their own behalf
and as next friends of their
child, I.G.; and TROY and
ANGELA NELSON, on
their own behalf and as
next friends of their
children, A.N. and R.N.,
Plaintiffs,
v.
A. PENDER MAKIN, in
his ofﬁcial capacity as
Commissioner of the Maine
Department of Education,
Defendant.

)
)
)
)
)
)
)
)
)
Civil No.
) 1:18-cv-00327-DBH
)
)
)
)
)
)
)
)
)

JUDGMENT
(Filed Jun. 26, 2019)
Pursuant to the Decision and Order on CrossMotions for Judgment on a Stipulated Record issued
by the U.S. District Judge D. Brock Hornby on June 26,
2019,
JUDGMENT is hereby entered for the defendant,
A. Pender Makin, in his ofﬁcial capacity as Commissioner of the Maine Department of Education and

App. 75
against the plaintiffs, David and Amy Carson on their
own behalf and as next friends of their child, O.C., Alan
and Judith Gillis on their own behalf and as next
friends of their child, I.G and Troy and Angela Nelson,
on their own behalf and as next friends of their children, A.N. and R.N.
CHRISTA K. BERRY
CLERK
By: /s/ Michelle Thibodeau
Deputy Clerk
Dated: June 26, 2019

App. 76
Me. Stat. tit. 20-A, § 2
Policy on public education
The state policy on public education is as follows.
1. State responsibility for public education. In
accordance with the Constitution of Maine, Article
VIII, the Legislature shall enact the laws that are necessary to assure that all school administrative units
make suitable provisions for the support and maintenance of the public schools. It is the intent of the Legislature that every person within the age limitations
prescribed by state statutes shall be provided an opportunity to receive the beneﬁts of a free public education.
*

*

*

Me. Stat. tit. 20-A, § 2701
Authority to contract for school privileges
The legislative body of a school administrative unit
other than a school administrative district, which does
not maintain any of the grades from kindergarten to
grade 12, may authorize its school board to contract
with another school for school privileges for all or a
part of its resident students in those grades for a term
of 2 to 10 years.

App. 77
Me. Stat. tit. 20-A, § 2702
Acceptance of contract students
The legislative body of any nearby school administrative unit or the board of trustees of a nearby private
school approved for tuition purposes may agree to accept contract students.

Me. Stat. tit. 20-A, § 2901
Requirement for basic school approval
A private school may operate as an approved private
school for meeting the requirement of compulsory
school attendance under section 5001-A if it:
1. Hygiene, health, safety. Meets the standards for
hygiene, health and safety established by applicable
law and rule; and
2.

Is either:
A. Currently accredited by a New England association of schools and colleges; or
B. Meets applicable requirements of this Title
pertaining to private schools and the department’s
requirements for approval for attendance purposes adopted under section 2902.

App. 78
Me. Stat. tit. 20-A, § 2902
State requirements
Private schools approved for attendance purposes by
the department shall:
1. Immunization. Comply with the immunization
provisions under chapter 223, subchapter 2;
2. Language of instruction. Use English as the
language of instruction except as speciﬁed under section 4701;
3. Courses required by law. Provide instruction in
elementary schools as speciﬁed in sections 4701, 4704,
4706 and 4711 and in secondary schools as speciﬁed in
sections 4701, 4704, 4706, 4722, 4723 and 4724.
4. Commissioner’s basic curriculum. Provide instruction in the basic curriculum established by rule
by the commissioner under section 4704 and in alignment with the system of learning results established
in section 6209;
5. Certiﬁed teachers. Employ only certiﬁed teachers;
6.

Secondary schools. For private secondary schools:
A. Meet the requirements of a minimum school
year under section 4801;
B. Provide a school day of sufﬁcient length to allow for the operation of its approved education
program;

App. 79
C. Have a student-teacher ratio of not more than
30 to one;
D Include not less than 2 consecutive grades
from 9 to 12; and
E.

Maintain adequate, safely protected records;

7. Approval rules. Meet the requirements applicable to the approval of private schools for attendance
purposes adopted jointly by the state board and the
commissioner;
8. Release of student records. Upon the request of
a school unit, release copies of all student records for
students transferring from the private school to the
school unit;
9. Medication. Meet the requirements for administering medication under section 254, subsection 5; and
10. Reintegration planning. Meet the requirements for administering reintegration planning under
section 254, subsection 12.

Me. Stat. tit. 20-A, § 2951
Approval for tuition purposes
A private school may be approved for the receipt of
public funds for tuition purposes only if it:
1. Basic approval. Meets the requirements for basic
school approval under subchapter I;

App. 80
2. Nonsectarian. Is a nonsectarian school in accordance with the First Amendment of the United States
Constitution;
3. Incorporated. Is incorporated under the laws of
the State of Maine or of the United States;
4.

Repealed. Laws 1983, c. 859, § A, 8.

5. Additional requirements. Complies with the reporting and auditing requirements in sections 2952
and 2953 and the requirements adopted pursuant to
section 2954;
6. Student assessment. Meets the following requirements:
A. It participates in the statewide assessment
program to measure and evaluate the academic
achievements of students; and
B. It meets the applicable requirements of the
system of learning results established in section
6209.
The requirements of this subsection apply only to a
school that enrolls 60% or more publicly funded students, as determined by the previous year’s October
and April average enrollment; and
7. Release of student records. Upon the request of
a school unit, releases copies of all student records for
students transferring from the private school to the
school unit.

App. 81
Me. Stat. tit. 20-A, § 5001-A
Compulsory attendance
Attendance at school shall be required of persons in
the State as follows.
1. Requirement. Persons 6 years of age or older and
under 17 years of age shall attend a public day school
during the time it is in regular session.
*

*

*

3. Alternatives to attendance at public day school.
Alternatives to attendance at public day school are as
follows. A person 5 years of age or older and under 6
years of age is not required to meet the requirements
of this subsection.
A. Equivalent instruction alternatives are as follows.
(1) A person is excused from attending a
public day school if the person obtains equivalent instruction in:
(a) A private school approved for attendance purposes pursuant to section
2901;
(b) A private school recognized by the
department as providing equivalent instruction;
(c) Deleted. Laws 2003, c. 181, § 1, eff.
May 16, 2003.

App. 82
(c-1) A home instruction program that
complies with the requirements of subparagraph (4); or
(d) Any other manner arranged for by
the school board and approved by the
commissioner.
*

*

*

Me. Stat. tit. 20-A, § 5204
Secondary students right to attend
school in another administrative unit
*

*

*

3. Contract school. Students whose parents reside
in a school administrative unit which contracts for
school privileges under section 2701 may attend the
contract school. The school administrative unit in which
their parents reside shall pay the cost of the contract.
4. No secondary school. A school administrative
unit that neither maintains a secondary school nor
contracts for secondary school privileges pursuant to
chapter 115 shall pay the tuition, in accordance with
chapter 219, at the public school or the approved private school of the parent’s choice at which the student
is accepted.
*

*

*

